<html>
<title> - ASIAN ADOPTIONS IN THE UNITED STATES</title>
<body><pre>[Senate Hearing 109-831]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-831
 
                  ASIAN ADOPTIONS IN THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 8, 2006

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
34-102                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                    LISA MURKOWSKI, Alaska, Chairman

LAMAR ALEXANDER, Tennessee           JOHN F. KERRY, Massachusetts
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         RUSSELL D. FEINGOLD, Wisconsin
GEORGE ALLEN, Virginia               BARACK OBAMA, Illinois

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Atwood, Thomas, president and CEO, National Council for Adoption, 
  Alexandria, VA.................................................    27
    Prepared statement...........................................    31
    Letter to Senator Landrieu...................................    30
Barry, Catherine, Deputy Assistant Secretary for Overseas 
  Citizens Services, Bureau of Consular Affairs, Department of 
  State, Washington, DC..........................................     5
    Prepared statement...........................................     7
Cox, Susan Soon-Keum, vice president of public policy and 
  advocacy, Holt International Children's Services, Eugene, OR...    36
    Prepared statement...........................................    37
Craig, Hon. Larry, U.S. Senator from Idaho.......................     2
Divine, Robert, Acting Deputy Director, Citizenship and 
  Immigration Services, Department of Homeland Security, 
  Washington, DC.................................................    10
    Prepared statement...........................................    13
Landrieu, Hon. Mary, U.S. Senator from Louisiana.................    22
Murkowski, Hon. Lisa, U.S. Senator from Alaska, opening statement     1

                                 (iii)

  


                  ASIAN ADOPTIONS IN THE UNITED STATES

                              ----------                              


                         TUESDAY, JUNE 8, 2006

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Lisa 
Murkowski (chairman of the subcommittee) presiding.
    Present: Senators Murkowski, Craig, and Landrieu.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    Senator Murkowski. Good afternoon and welcome to the 
Foreign Relations subcommittee on East Asian and Pacific 
Affairs. Today we are going to be taking a look at the United 
States policy on international adoption, and in particular, 
adoptions from Asian nations.
    I am particularly pleased to have Senator Larry Craig with 
us this afternoon. Senator Mary Landrieu will be joining us 
shortly. They are here this afternoon to provide us with their 
insights and their perspectives on the issue of adoption. I 
think it's fair to say that there are probably no greater 
advocates of adoption in the United States Senate than these 
two and they are certainly a tremendous credit to this body for 
their hard work in this area. Senator Craig, I want to 
personally thank you, and I will do the same to Senator 
Landrieu, for your efforts.
    Here in the United States, U.S. citizens adopt more 
children from abroad than the citizens of all other countries 
combined. Last year over 22,000 foreign children were adopted 
by U.S. citizens. And we recognize that that does create a 
burden on the Departments of State and Homeland Security to 
meet the demands and expectations of prospective parents who 
are anxious to bring new family members into their lives. Yet 
much of the burden lies with the foreign governments who must 
permit adoptions by foreign nationals and provide a smooth and 
transparent process for intercountry adoption.
    The Hague Convention on Intercountry Adoption, which 
entered into force in 1995, is designed to facilitate the 
process of intercountry adoption. Congress passed the 
International Adoption Act of 2000 to provide the domestic 
legislation to implement the Hague Convention. And yet, the 
United States has not yet ratified that Convention. I hope that 
our witnesses from the administration today will be able to 
provide us with an update on where we are in implementing the 
Convention and what Congress can do to help facilitate that 
process.
    During the course of the hearing, I would also like to 
bring up the status of adoptions from both Cambodia and China. 
In December 2001, the United States placed a moratorium on 
adoptions from Cambodia due to concerns about baby trafficking, 
certainly a concern that must be addressed. At the time of the 
moratorium we had two families in the state of Alaska who were 
left in limbo. Their adoption petitions had been approved, they 
had already visited the children, but they were unable to 
finalize the process.
    Fortunately, thanks to the efforts of many interested 
organizations and families, and the cooperation of the 
administration, many of those that were stuck in the pipeline, 
including those families from Alaska, were able to complete 
their adoptions. But still, that moratorium remains in place.
    In a similar vein, in 2001 and again in 2004, Romania 
changed its adoption laws to essentially prohibit international 
adoption. After the 2001 moratorium was first implemented, we 
again had an Alaska family who was in the pipeline to adopt a 
Romanian child. And they were one of the few families who the 
Romanian Government eventually allowed to proceed with their 
adoption.
    Since then, the State Department has worked aggressively 
with Romania to help reform their adoption laws. And in this 
past May, the Senate Foreign Relations Committee approved a 
resolution introduced by Senator Landrieu urging Romania to 
reduce their barriers to intercountry adoption. I am hopeful 
that similar efforts are being made with Cambodia.
    And with regard to China, the No. 1 source of adopted 
foreign children by United States citizens, the issue is 
probably one of timing more than transparency. It often takes 
more than the allocated 18 months to process an adoption 
petition in China, requiring prospective parents to incur 
additional costs in renewing their petition and submitting new 
fingerprints.
    Although the time frame may be a problem only for adoptions 
from China, it is a problem for thousands of Americans each 
year--nearly 8,000 last year. And as more and more families 
look to adopt from overseas, and particularly from China, it 
seems that we should be able to find an acceptable solution to 
this growing problem.
    With that, I would like to begin with our first panel, 
Senator Craig. I do understand that Senator Landrieu is in a 
meeting, and will join us, hopefully, after you have had an 
opportunity to make your comments, Senator Craig. If not, we 
will work her into the panels when she arrives. But if you 
would please provide your statement here this afternoon. And 
again, thank you for your efforts to make a difference to so 
many families.

     STATEMENT OF HON. LARRY CRAIG, U.S. SENATOR FROM IDAHO

    Senator Craig. Well, Madame Chairman, thank you for that 
kind introduction, and thank you for convening this important 
hearing on adoption from primarily the Asian region, the source 
of the largest number of children adopted internationally in 
the United States, as you have just previously stated.
    I wish my schedule permitted me to stay and listen to all 
of your witnesses today. I am sure they will be providing the 
subcommittee with some additional valuable information. This 
hearing is particularly noteworthy because I believe it is the 
first congressional hearing on international adoption issues to 
be held since the publication of the final rule on accelerating 
agencies in accrediting agencies in intercountry adoption, one 
of the last steps necessary for this country to fully implement 
the Hague treaty on intercountry adoption, that was signed more 
than a decade ago, and ratified by the Senate 6 years ago.
    In other words, we are fully entering a new era of 
international adoption by Americans, an era in which the 
Federal Government has a critical role in the adoption process. 
There should be an ongoing dialog between Capitol Hill and the 
executive branch of Government as we move ahead. For example, 
we will surely find the need to adjust our system and law. In 
fact, during the immigration debate, the Senate passed the 
``ICARE'' amendment offered by Senator Landrieu, Senator 
DeMint, myself, and others, to make some important changes that 
will help Americans involved in international adoption.
    I know we still have to convince some people on the details 
of this amendment, and I believe we will be able to address 
those concerns. But my point is that there is an ongoing need 
for focus by Congress and other Federal agencies on the issue 
of international adoption, and I am very pleased you are 
kicking it off with this discussion today. It is tremendously 
important.
    As you know, Madame Chairman, I am an adoptive parent. As a 
freshman Senator, I became involved with the congressional 
coalition on adoption, and several years later Senator Landrieu 
joined me as a Senate cochair. That coalition today numbers 
nearly 200 members of the House of Representatives and the 
Senate, for whom adoption is a priority issue. Senator Landrieu 
and I have also helped to establish a nonprofit institute 
called CCAI, Congressional Coalition Adoption Institute, which 
helps to educate Members of Congress and the public about 
adoption.
    On the international front, CCAI has played a key role with 
foreign delegations involved in adoption issues who are 
traveling in our country, and we have organized trips for 
Members of Congress to visit the source countries for U.S. 
adoption, and discuss adoption matters with their government.
    Although I am a strong advocate for adoption, it wasn't my 
passion for this issue that drove all of these developments. It 
is important to note that we were responding to a demand for 
congressional assistance that has been growing steadily from 
adopting families in the United States, and you have spoken in 
your opening statement about the concerns of some of your 
constituents in Alaska. When there was no specific point of 
contact in either Congress or the Federal Government on 
handling adoption issues, our coalition and the institute began 
to help fill that very gap. Today, that situation is changing 
in regard to international adoption, with the Departments of 
State and of Homeland Security stepping into some of the 
central authority roles described under the Hague treaty.
    However, one thing that probably will not change is the 
demand coming from adopting families. Americans pursue 
international adoptions for various reasons. Some have personal 
roots in another country that they want to renew through 
adoption. Others just feel a cultural kinship with a foreign 
country. Some adopt internationally for humanitarian reasons. 
And frankly, some choose international adoption as a last 
resort out of frustration with United States law that hinders 
them from adopting domestically. They want to form a family 
through adoption, and when they can't do it here they reach out 
around the world.
    Whatever the motivation, U.S. families have been adopting 
overseas in ever-increasing numbers, and you mentioned those. 
More than 20,000 annually, for the last couple of years. That's 
a lot of people who potentially need assistance from our 
Government in dealing with foreign countries. The greatest 
number of United States international adoptions, as you've 
spoken to, comes from China. China is much improved, even 
though there are still difficulties. There's a greater 
transparency and efficiency and predictability. And yet still, 
it is timely and it is costly. And we ought to work to improve 
that with the Chinese Government.
    I wish I could say as much about the experiences Americans 
have adopting elsewhere in Asia. It is not true. There are 
enormous difficulties in sending countries that comprise the 
Asian region, including their unique culture, their 
characteristics, and their governments. All of these unique 
traits affect how these countries deal with adoption. This past 
year, I was in India. There, it is nearly impossible, and yet 
there are more Indian children in need of a home than almost in 
any other continent of the world.
    Beyond those difficulties, obstacles have arisen in 
international adoption from Asia because of the concerns about 
the horrible crimes of human trafficking, and you have 
mentioned some of that--in Cambodia and Vietnam, in particular. 
Even legitimate adoptions have been disrupted in a fight 
against corruption. You mentioned Cambodia. We were involved in 
Cambodia for some citizens from my State of Idaho. It was also 
true. You mentioned Romania. The same thing happened with 
Idahoans in Romania.
    Let me stress, I do not know of anybody in the adoption 
community who would countenance trafficking in children. As 
much as we want to facilitate adoptions, these adoptions must 
be ethical, and they must be transparent. Having said that, 
however, we should help these nations find ways to fight 
corruption while allowing legitimate adoptions to proceed. 
Otherwise, it is the orphan who will be paying the price for 
somebody else's criminal behavior, the orphan who cannot be 
adopted domestically, and may be deprived of a permanent, 
loving home from an adoptive family of another country.
    I have only scratched the surface here, and I am sure you 
will hear much, much more of the challenges and the 
opportunities for adoption in the Asian region from the 
panelists that you have assembled here today. In closing, again 
Madame Chairman, let me thank you for beginning a very critical 
dialog, a new role to be played between the Congress and the 
executive branch of Government. There are literally thousands 
of Americans waiting to form families, and you and I and others 
can play a critical role in facilitating their dream. Thank you 
very much.
    Senator Murkowski. Thank you, Senator Craig. And again, 
thank you for your leadership on this. We had an opportunity to 
speak just a few moments ago and talked about the competing 
priorities that we, as a Government, face--that the agencies 
face. State Department has a great deal of important issues on 
their plate, as does Homeland Security. We have got the war, 
we've got other issues, but we know that when it comes to 
caring for our children, this is the true marker of good people 
and of great nations--it is those that are able to find a way 
to help the children. So thank you for your efforts in doing 
just that.
    Senator Craig. Thank you very much, Lisa.
    Senator Murkowski. And we appreciate your schedule, and we 
will look forward to Senator Landrieu's comments when she is 
able to join us. With that, let us call up the second panel. 
Catherine Barry, the Deputy Secretary Assistant for Overseas 
Citizens Services, Bureau of Consular Affairs here in 
Washington DC, as well as Robert Divine who is the acting 
deputy director of the Citizen and Immigration Services for the 
Department of Homeland Security.
    Welcome to the committee this afternoon. And again, we 
thank you for joining us this afternoon to share comments from 
both the State Department and the Department of Homeland 
Security. With that, Ms. Barry, if you want to start off, 
please.

 STATEMENT OF CATHERINE BARRY, DEPUTY ASSISTANT SECRETARY FOR 
    OVERSEAS CITIZENS SERVICES, BUREAU OF CONSULAR AFFAIRS, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Ms. Barry. Thank you very much. Chairman Murkowski, thank 
you very much for this opportunity to discuss the status of 
intercountry adoptions from Asia, as well as the Department of 
State's efforts on behalf of American families who have decided 
to open their hearts and their homes to Asian children in need 
of permanent, loving families. The departments of State and 
Homeland Security are deeply committed to working with these 
families, as well as with the children's countries of origin to 
ensure that intercountry adoptions occur under transparent 
conditions, and with appropriate safeguards to protect the 
interests of birth parents, adoptive parents, and most 
importantly, the children themselves.
    Last year alone, Americans adopted nearly 23,000 children 
from countries around the world. Over 10,000 of those children 
came from Asia. We encourage Asian nations to allow 
intercountry adoption as an option for children who otherwise 
would spend their childhoods in orphanages and other 
nonpermanent care. Our work encouraging intercountry adoptions 
is inspired by the 1993 Convention on protection of children 
and cooperation and respect of intercountry adoption, which I 
will further refer to as the Hague Convention. The Convention 
recognizes that the full and harmonious development of a child 
needs a family environment, quote, ``an atmosphere of 
happiness, love, and understanding,'' end quote.
    It also recognizes that intercountry adoption may offer the 
advantage of a permanent family to a child for whom a suitable 
family cannot be found in his or her state of origin. As of 
today, 68 countries have ratified or acceded to the Hague 
Convention. Asia is well represented in this group. China, 
India, the Philippines, Sri Lanka, and Thailand are all Hague 
countries.
    Through discussions in cooperation with Asian governments, 
particularly those that have not ratified the Hague Convention, 
we seek to implement and enforce standards and protections to 
ensure that the childrens' best interests are always the 
primary consideration, and to combat baby buying and selling. 
Consular officers and other State Department officials abroad, 
as well as those of us here in Washington, meet regularly with 
country of origin officials to identify potential problems and 
coordinate solutions.
    The past years have several milestones that I believe 
portend good things for the use of intercountry adoptions in 
Asia to help children in need. On June 21, 2005, Assistant 
Secretary for Consular Affairs, Maura Harty, and Vietnamese 
Justice Minister Uong Chu Luu, signed a bilateral adoption 
agreement that reaffirmed both countries' commitment to high 
standards and safeguards, and allowed for the recommencement of 
adoptions from Vietnam.
    The Vietnamese Department of International Adoptions has 
licensed nearly 20 United States adoption agencies to work in 
Vietnam. And on January 25 of this year, the United States 
Embassy in Hanoi issued the first orphan immigrant visa to a 
Vietnamese child since our Embassy took over the responsibility 
for orphan visa cases from our Consulate General in Ho Chi Minh 
City, and the bilateral agreement entered into practical 
effect.
    Over two dozen Vietnamese children have found permanent 
families with American citizen parents since January, and we 
believe that many more children will follow them in the coming 
months. In another important and extremely positive 
development, the People's Republic of China, the largest 
country of origin of children adopted by Americans 
internationally, ratified the Hague Intercountry Adoption 
Convention on September 16, 2005. The Department of State and 
the American adoption community have long viewed China as a 
country of origin with clear, uniform procedures that are 
transparent to adoptive parents and their representatives. We 
also know that the Chinese Government has strict measures to 
verify the identity and status of children available for 
adoption. China's Hague Convention ratification bolsters even 
further our level of confidence in China's commitment to 
equitable, legal, and transparent adoption procedures that meet 
the best interest of children, nearly 8,000 of whom came to the 
United States last year.
    At the other end of the confidence spectrum, unfortunately, 
is Cambodia, the only country for which the United States 
currently has an adoption suspension in effect. The then-
Immigration and Naturalization Service suspended adoptions from 
Cambodia in December 2001, due to very serious concerns about 
baby selling and rampant document fraud, some of which led to 
criminal convictions in the United States. Although a small 
number of so-called pipeline cases were allowed to continue to 
conclusion, the U.S. Government suspension has, at present, 
essentially stopped adoptions from Cambodia to the United 
States.
    The U.S. Government remains engaged on this issue. U.S. 
Ambassador to Cambodia, Joseph Mussomeli, met in March with 
UNICEF officials to coordinate efforts to assist the Cambodian 
Government in building its capacity to establish and/or 
regulate child welfare institutions. A draft child welfare law, 
which UNICEF wrote and the United States supports, is under 
consideration and we are hopeful that the critical legislation 
might be enacted by the end of the year. The draft legislation 
would permit intercountry adoptions. The U.S. Government, in 
partnership with UNICEF, stands ready to provide guidance to 
the Cambodian Government in both establishing a child welfare 
system, and enacting and implementing the pending legislation.
    Let me briefly summarize our efforts to ratify the Hague 
Convention on intercountry adoption in 2007. We plan to 
complete our regulatory work this calendar year. In February, 
we published the final rule regarding the standards of 
accreditation for adoption service providers and approved 
persons. This summer we will publish, for public comment, 
regulations modifying the consular role in immigrant visa 
processing in Hague cases, regulations governing the 
certification process for Hague adoptions that take place in 
the United States, and regulations establishing reporting 
duties for adoption services providers handling emigrating 
adoption cases. In this matter we are working closely with the 
Department of Homeland Security.
    In the near term, we hope to sign agreements with our 
potential accrediting entities. Once these agreements are 
ready, we can announce the application period for those 
interested in becoming accredited adoption services providers, 
or approved persons. Once we know the total number of 
applications, we will be able to provide a more accurate 
estimate of when we will be able to complete ratification of 
the treaty in 2007. It is our goal, now and in the future, as a 
central authority for the operation of the Hague Convention, to 
support the generosity of American families to provide 
permanent homes to children in need throughout Asia and the 
rest of the world. Thank you for your attention.
    [The prepared statement of Ms. Barry follows:]

 Prepared Statement of Catherine Barry, Deputy Assistant Secretary for 
 Overseas Citizens Services, Bureau of Consular Affairs, Department of 
                         State, Washington, DC

    Chairman Murkowski, ranking member Kerry, distinguished members of 
the committee. I appreciate this opportunity to discuss the status of 
intercountry adoptions from Asia, as well as the Department of State's 
efforts on behalf of American families who have decided to open their 
hearts and their homes to Asian children in need of permanent, loving 
families. The Department of State is deeply committed to working with 
these families, as well as with the children's countries of origin, to 
ensure that intercountry adoptions occur under transparent conditions, 
and with appropriate safeguards to protect the interests of birth 
parents, adoptive parents and, most importantly, the children 
themselves.
    It was exactly 50 years ago, in 1956, that the first large wave of 
internationally adopted children came to the United States, and they 
came from Asia. In the aftermath of the Korean War, Harry and Bertha 
Holt learned of the plight of Amerasian children in Korean orphanages 
and decided to help. Although a small number of children had come to 
the United States as adoptees before that time, it was an extremely new 
concept. The Holts adopted eight Korean children, and they and other 
pioneers like them were on the forefront of a movement that has grown 
and expanded to the point that last year alone, Americans adopted 
nearly 23,000 children from countries around the world. Over 10,000 of 
those children came from Asia.
    From Korea and Cambodia, Mongolia and Vietnam, China and many other 
Asian countries, children have come to the United States to join 
permanent and loving families, and the Department of State has been, 
and continues to be, by their side. [A statistical chart is attached to 
show the number of adopted children brought to the United States over 
the past 5 years as well as the source countries.]
    We encourage Asian nations to allow intercountry adoption as an 
option for children who otherwise would spend their childhoods in 
orphanages and other nonpermanent care. Our work encouraging 
intercountry adoptions is inspired by the 1993 Convention on Protection 
of Children and Cooperation in Respect of Intercountry Adoption, which 
I will further refer to as the Hague Convention. The Convention 
recognizes that the full and harmonious development of a child needs a 
family environment, ``an atmosphere of happiness, love, and 
understanding.'' It also recognizes that intercountry adoption ``may 
offer the advantage of a permanent family to a child for whom a 
suitable family cannot be found in his or her state of origin.'' The 
principles and goals of the Hague Convention have broad international 
support. As of today, 68 countries have ratified or acceded to the 
Hague Convention. Asia is well represented in this group: China, India, 
the Philippines, Sri Lanka, and Thailand are all Hague countries. In 
addition, UNICEF strongly supports the Convention as a means to protect 
children around the world and to ensure that their best interests are 
met.
    Through discussions and cooperation with Asian governments, 
particularly those that have not ratified the Hague Convention, we seek 
to implement and enforce standards and protections to ensure that the 
children's best interests are always the primary consideration, and to 
combat child buying and selling. In all countries, finding local, 
community-supported family settings to support orphaned or abandoned 
children is the preferred arrangement. When these options are not 
feasible, however, domestic and intercountry adoptions may be 
appropriate and in the best interests of the child. Consular officers 
and other State Department officials abroad, as well as those of us 
here in Washington, meet regularly with country-of-origin officials to 
identify potential problems and coordinate solutions.
    The past year saw several milestones that I believe portend good 
things for the use of intercountry adoptions in Asia to help children 
in need.
    On June 21, 2005, Assistant Secretary for Consular Affairs, Maura 
Harty, and Vietnamese Justice Minister Uong Chu Luu signed a bilateral 
adoption agreement that reaffirmed both countries' commitment to high 
standards and safeguards and allowed for the recommencement of 
adoptions from Vietnam. The bilateral agreement is consistent with 
several key principles of the Hague Convention such as having 
government authorities determine that:

  <bullet> A proposed adoption is in the best interests of the child;
  <bullet> The consent to the adoption was given by the persons or 
        institutions authorized to do so;
  <bullet> Adoptive parents had received counseling;
  <bullet> There were no improper requests for compensation; and
  <bullet> Prospective adoptive parents paid reasonable fees for 
        necessary administrative, medical, and court matters.

    The Vietnamese Department of International Adoptions has licensed 
nearly 20 United States adoption agencies to work in Vietnam, and on 
January 25 of this year, the U.S. Embassy in Hanoi issued the first 
orphan immigrant visa to a Vietnamese child since our Embassy took over 
the responsibility for orphan visa cases from our Consulate General in 
Ho Chi Minh City and the bilateral agreement entered into practical 
effect. Over two dozen Vietnamese children have found permanent 
families with American citizen parents since January, and we believe 
that many more children will follow them in the coming months. We have 
centralized adoption visa processing at our Embassy in Hanoi, and 
assigned an additional consular officer on temporary duty there, in 
order to facilitate ongoing dialogue with Vietnamese authorities and to 
ensure an efficient process for prospective adoptive parents.
    In another important and extremely positive development, the 
People's Republic of China--not only the world's most populous nation, 
but also the largest country of origin of children adopted by Americans 
internationally--ratified the Hague Intercountry Adoption Convention on 
September 16, 2005. The Department of State and the American adoption 
community have long viewed China as a country of origin with clear, 
uniform procedures that are transparent to adoptive parents and their 
representatives. We also know that the Chinese Government has strict 
measures to verify the identity and status of children available for 
adoption. In February 2006, the Chinese Government realized that some 
measures had been compromised by rural officials in Hunan province. A 
number of these officials were sent to jail pursuant to criminal 
convictions. The Chinese Government subsequently assured United States 
officials that none of the children erroneously put forward for 
adoption had been adopted by American families. The Chinese Government 
also assured us that they have reinvigorated their internal controls. 
China's Hague Convention ratification bolsters even further our level 
of confidence in China's commitment to equitable, legal, and 
transparent adoption procedures that meet the best interests of 
children, nearly 8,000 of whom came to the United States last year.
    As I mentioned earlier in my statement, we also have a long and 
cooperative history with Korea regarding intercountry adoptions. As in 
China, transparent procedures and strong safeguards for the welfare of 
children are a hallmark of the Korean adoption system. In fiscal year 
2005, over 1,600 Korean orphans found loving, permanent homes in the 
United States through intercountry adoption.
    At the other end of the confidence spectrum, unfortunately, is 
Cambodia, the only country for which the United States currently has an 
adoption suspension in effect. The then-Immigration and Naturalization 
Service suspended adoptions from Cambodia in December 2001, due to very 
serious concerns about baby selling and rampant document fraud, some of 
which led to criminal convictions in the United States. Although a 
small number of so-called ``pipeline'' cases were allowed to continue 
to conclusion, the U.S. Government suspension has, at present, 
essentially stopped adoptions from Cambodia to the United States.
    The U.S. Government remains engaged. Last summer, the U.S. 
Government funded a survey by the international child welfare 
organization, Holt International--the same organization founded by 
Harry and Bertha Holt 50 years ago--to count and identify all of the 
children living in Cambodian institutions. The purpose of this survey 
was to develop baseline data about the numbers of Cambodian children in 
institutional care and the nature of their needs, a first important 
step toward designing an appropriate child welfare system. During this 
same period, UNICEF was also conducting a separate survey focused on 
the provision of child care services and facilities in Cambodia. Both 
we and UNICEF have turned over the results of our studies to the 
Government of Cambodia with the expectation that the data would help 
Cambodian officials design programs to meet the needs of children 
requiring care. U.S. Ambassador to Cambodia, Joseph Mussomeli, met in 
March with UNICEF officials to coordinate efforts to assist the 
Cambodian Government in building its capacity to establish and/or 
regulate child welfare institutions. UNICEF has indicated its intention 
to assist the Cambodian Government in training Cambodian nationals in 
achieving this goal through workshops and seminars. A draft child 
welfare law, which UNICEF wrote and the United States supports, is 
under consideration, and we are hopeful that this critical legislation 
might be enacted by the end of the year. The draft legislation would 
permit intercountry adoptions. The U.S. Government, in partnership with 
UNICEF, stands ready to provide guidance to the Cambodian Government in 
both establishing a child welfare system and enacting and implementing 
the pending legislation.
    Let me take this opportunity to briefly summarize the Department's 
efforts to ratify the Hague Convention on Intercountry Adoption. Our 
goal is to do so in 2007. Specifically, the Department intends to 
complete our regulatory work this calendar year. In February, we 
published the final rule regarding the standards of accreditation for 
adoption service providers and approved persons. This summer, we will 
publish for public comment regulations modifying the consular role in 
immigrant visa processing in Hague cases, regulations governing the 
certification process for Hague adoptions that take place in the United 
States, and regulations establishing reporting duties for adoption 
service providers handling emigrating adoption cases. In this endeavor, 
we are working closely with the Department of Homeland Security.
    In the very near term, we hope to sign agreements with our 
potential accrediting entities. Once these agreements are ready, we can 
announce the application period for those interested in becoming 
accredited adoption service providers or approved persons. Once we know 
the total number of applications, we will be able to provide a more 
accurate estimate of when we will be able to complete ratification of 
the treaty.
    The Department of State and the Department of Homeland Security 
both participated in the special commission on the practical operation 
of the Hague Convention, September 17-23, 2005. It was evident, as 
numerous national delegations and NGO experts commented on the 
operation of the Convention, that U.S. support for the Convention is 
broadly appreciated. More importantly, the U.S. delegation was 
gratified to learn that many governments appreciate the willingness of 
American families to provide loving homes to children, including 
children with special needs. Statistics presented at the meeting 
indicated that worldwide adoptions amounted to approximately 40,791 in 
2003. Of that number, approximately 21,616 had been adopted by American 
families. It is the goal of the Department of State, now and in the 
near future as the central authority for the operation of the Hague 
Convention, to support the generosity of American families to provide 
permanent homes to children in need throughout Asia and the rest of the 
world.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Murkowski. Thank you, Ms. Barry.
    Mr. Divine, welcome.

STATEMENT OF ROBERT DIVINE, ACTING DEPUTY DIRECTOR, CITIZENSHIP 
  AND IMMIGRATION SERVICES, DEPARTMENT OF HOMELAND SECURITY, 
                         WASHINGTON, DC

    Mr. Divine. Thank you. Senator, my written remarks are in 
the record, and you either read them or can read them, and I 
won't repeat them, and I'll speak a little bit from the heart.
    As a lawyer, and as an immigration lawyer for 17 years 
before coming to the Government, I represented a number of 
families who were adopting children internationally, and I know 
the frustration with the process and I have experienced, with 
them, some of the difficulties. Two of my very best friends 
have adopted three different Chinese children in the last 2 
years. My wife and I have adopted three children ourselves, and 
I know what it's like to eagerly await your child.
    I have happily accepted invitations of child-placing 
agencies to speak with prospective adoptive parents. And when I 
have done that speaking, I have tended to find myself saying 
the same thing that my wife and I were preaching to ourselves 
as we were going through the process, and that is that it is 
not about us, it is about the children. This is about the best 
interest of the child.
    And I know that among the prospective adoptive parents, 
some were hurting, most were anxious, all were eager, and God 
bless them. But it is about the children. Adoption is a 
beautiful example of grace and restoration in an otherwise 
sometimes disappointed world, and children who need a home and 
parents who want a child can come together and make a family.
    But most good things are subject to perversion and abuse, 
and this is no exception. Some people would want to adopt for 
wrong reasons that would not be the best for the child. Others 
may have great homes and great intentions, but whether known or 
unknown to them, their eagerness to parent can create a market 
for children that works against the best interests of children 
in our country. U.S. law, I think, is well conceived to protect 
the children and everyone else in the process in international 
adoptions, and the Hague Convention and the Intercountry 
Adoption Act will provide more protection. USCIS, the agency 
where I work in the Department of Homeland Security, works to 
ensure several things. First, that at least one of the parents 
is a U.S. citizen, according to the law; also, through an FBI 
fingerprint check, we make sure that the adults in the home are 
not dangerous. Next, through a home study, we ensure that the 
adoptive home is appropriate for a child. Then we make sure 
that the child to be adopted is truly a child without a home, 
and is not being sold. If there is an inadmissibility issue, 
maybe a disease issue, then we adjudicate the admissibility 
through a waiver. And finally, we issue permanent resident 
cards and citizenship certificates to children who immigrate in 
the United States.
    As in so many areas of the law, the Department of Homeland 
Security and the Department of State share responsibilities and 
processes in international adoption, and since coming to the 
Government, I have really been impressed with the dedication of 
people in both Departments who are working well, and better all 
the time in their own agencies, and with each other. But we can 
do better.
    We need to give a clearer picture--in my view, in my 
personal view--we need to give a clearer picture to adoptive 
families about how the process will work, and where they are in 
the process at any given time in it. The process needs to flow 
more naturally and more efficiently. There needs to be a more 
seamless connection between the government offices involved, 
both within and between the departments. An example of how 
things ought to work, and what we ought to be shooting for is 
one of our processing successes. The Child Citizenship Act 
amended section 320 of the INA, to provide automatic 
citizenship when basically everything has come together to 
result in permit residence conferred on the child, with a full 
and final adoption.
    So beginning on January 1, 2004, USCIS, before I got there, 
made the process as automatic as the legal effect for these 
children. So as the adopted child enters the United States port 
with an IR-3 visa, the visa file is routed to the USCIS office 
in Buffalo, who instead of issuing a permanent resident card, 
goes ahead and issues a certificate of citizenship, without the 
family even having to apply separately for that document. That 
is the kind of thing that we ought to be shooting for: Less 
complexity for the families, better ultimate result.
    At the beginning of this year, I had become aware of some 
concerns. Friends of mine dealing with the process, other 
people--got some folks together, and it became clear that our 
adoption process at USCIS needed improvement, especially in 
streamlining and clarifying the process for those families. I 
set up an ``intercountry adoption working group,'' and it 
involves people both at USCIS and at the Department of State. 
They are taking a fresh perspective to improve what we are 
already doing, and to get ready to implement the Hague 
Convention, according to the Department of State's schedule 
that was mentioned.
    We expect to have a draft of our rule next month. It has to 
make its way up through the Department and OMB, but we are 
doing everything we can to get that done. It is part of a 
bigger scheme, and the goal is to have it all converge so that 
nobody is holding anybody else up.
    This working group is a marvelous group under fantastic 
leadership. Anne Palmer is leading it, and by all accounts, she 
is incredibly dedicated to this task. And she has really 
solicited ideas from stakeholders and I think they would all, I 
think--people in the stakeholder community--would applaud what 
she has been doing. On June 12, that group will give the first 
of, I'm sure, many quarterly reports to the Congressional 
Coalition on Adoption Institute, and we look forward to that, 
and I am sure that your staff will be interested in that.
    So in closing, I would like to just mention the ICARE Act. 
I really applaud the willingness of the Senate to consider a 
new perspective, a new approach, and not be completely hampered 
by however things have gone before, and we are certainly trying 
to approach things that way in our agency. But the Department 
of Homeland Security has concerns about the ICARE Act, and 
particularly, the provision that allows foreign governments to 
designate U.S. citizenship through the foreign adoption 
process. That citizenship provision in our view is too 
automatic, and we urge you not to eliminate the critical U.S. 
Government control over citizenship determinations. I guess 
otherwise I would say, as we have described, we are trying to 
make the very best out of the process that we have and out of 
the framework that we have, and we look forward to the 
opportunity to make that as effective as anything else could 
be.
    Thank you.
    [The prepared statement of Mr. Divine follows:]


     Prepared Statement of Robert Divine, Acting Deputy Director, 
Citizenship and Immigration Services, Department of Homeland Security, 
                             Washington, DC

    Madame Chairwoman and members of the subcommittee. My name is 
Robert Divine and I am the Acting Deputy Director of U.S. Citizenship 
and Immigration Services (USCIS). I am honored to have this opportunity 
to address the subcommittee on intercountry adoptions. The employees of 
USCIS are proud of the important role they play in assisting U.S. 
citizens seeking to adopt children from other countries. As a result of 
their collective efforts, more than 200,000 foreign-born children over 
the past decade are living with their adoptive families in the United 
States.
    I also want to take this opportunity to publicly thank our 
colleagues at the Department of State for their ongoing partnership 
with USCIS as we assist U.S. citizens in opening their hearts and homes 
to children from other countries. Today my colleagues from the 
Department of State and I will share with you the many achievements and 
challenges we have faced in the past year. I will also address 
particular issues concerning intercountry adoption in China, Indonesia, 
Vietnam, Cambodia, and the implementation of the Convention on 
Protection of Children and Cooperation in Respect of Intercountry 
Adoption (Hague Convention).

                                OVERVIEW

    In recent years, the United States has seen a steady increase in 
the number of children from other countries adopted by U.S citizens--
from 19,087 children in fiscal year 2001 to more than 22,700 children 
in fiscal year 2005. USCIS remains committed to improving and 
streamlining its processes, while strengthening the protection of 
children in the system.

------------------------------------------------------------------------
                                                      Immigrants-orphans
            Fiscal year (Oct.1-Sept. 30)                adopted by U.S.
                                                           citizens
------------------------------------------------------------------------
2005................................................             22,710
2004................................................             22,911
2003................................................             21,320
2002................................................             21,100
2001................................................             19,087
2000................................................             18,120
------------------------------------------------------------------------
Source: Office of Immigration Statistics, Yearbook of Immigration
  Statistics data includes (1) orphans adopted abroad, admitted to the
  United States (IR3s), (2) orphans adopted abroad, adjustments in the
  United States (IR8s), (3) orphans to be adopted, admitted to the
  United States (IR4s), and (4) orphans to be adopted, adjustments in
  the United States (IR9s).

              RECENT ACHIEVEMENTS IN INTERCOUNTRY ADOPTION

    USCIS understands the critical role it plays in the process of 
intercountry adoptions. There are several vehicles USCIS uses in its 
efforts to assist prospective adoptive parents and children through the 
intercountry adoption process. One such vehicle is the Child 
Citizenship Act (CCA).
Child Citizenship Act Program
    The Child Citizenship Act (CCA), which became effective on February 
27, 2001, amended section 320 of the Immigration and Nationality Act 
(INA) by providing U.S. citizenship to certain foreign-born children. 
Under the CCA, children with a full and final adoption abroad who 
immigrate to the United States with a U.S. citizen parent automatically 
acquire U.S. citizenship upon entry. Children who emigrate and have 
their adoption finalized in the United States become citizens at the 
time of the final U.S. adoption. A ``full and final adoption'' exists, 
for immigration purposes, if (1) the adoptive parents completed the 
adoption abroad according to the laws of the child's country, so that 
the adoptive parents are now the child's legal parents for all 
purposes, and (2) BOTH parents saw the child either before or during 
the adoption proceeding abroad. The child receives an ``IR-3'' 
immigrant visa, if both of these requirements are met. If not, then the 
child receives an ``IR-4'' immigrant visa. For example, if only one 
parent saw the child, but the foreign proceeding was an actual adoption 
proceeding, an IR-4 visa would be the proper visa. An IR-4 visa would 
also be the proper visa if both parents saw the child, but the foreign 
proceeding was a guardianship or custody proceeding, rather than an 
actual adoption proceeding. For a child who enters with an IR-4 visa, 
the parents must then adopt the child in the United States, if there 
was no adoption abroad. If there was an adoption abroad, but the 
parents did not both meet the child before or during the adoption, then 
the parents must establish that the foreign adoption is recognized 
under the law of their home State. This recognition may be established 
either by obtaining a formal court order recognizing the adoption 
(sometimes called ``readoption'') or by establishing that the home 
State's law recognized the foreign adoption without the need for a 
formal court proceeding.
    If a citizen believes that his or her adopted child acquired 
citizenship under the CCA, the parent may file an application for a 
certificate of citizenship. In addition to this standard practice, 
however, USCIS also implemented the requirements of the CCA by creating 
a special program that processes citizenship for children adopted in 
other countries. The program began on January 1, 2004, and is located 
in the USCIS Buffalo, NY District Office. Through the program, USCIS-
Buffalo receives and reviews all immigrant visas for children admitted 
to the United States who were adopted abroad (that is, those issued IR-
3 visas), and issues a certificate of citizenship to those children who 
meet the requirements under section 320 for automatic acquisition of 
citizenship. No formal application for a certificate of citizenship is 
required, under this special program, if the child meets these 
requirements.
    To date, the CCA Program has been a success. From its inception on 
January 1, 2004 to May 30, 2006 the program has:

  <bullet> Received and reviewed 37,617 visas for children admitted 
        with IR-3 visas; and
  <bullet> Produced 37,185 certificates of citizenship for adopted 
        children who were found to have acquired citizenship under 
        section 320.

    It is important to note that just 34 days, on average, elapse from 
the time the child enters the United States with an IR-3 immigrant visa 
to the time a certificate of citizenship is produced for the adopted 
child. While proud of this accomplishment, USCIS continues to work hard 
to maintain and improve the timeliness of this program.
Intercountry Adoptions Working Group
    In March 2006, I established and chartered the Intercountry 
Adoptions Working Group consisting of representatives of various 
components within USCIS that play a role in intercountry adoption, as 
well as representatives from the Department of State's Office of 
Children's Issues and Consular Affairs. The working group is 
responsible for addressing three issues:

  <bullet> Near-term improvements and streamlining of USCIS' current 
        intercountry adoption process;
  <bullet> Long-term redesign of USCIS' intercountry adoption process 
        to strengthen customer service and integrity; and
  <bullet> Promulgation of USCIS regulations, and potential other 
        changes, necessary to implement the Hague Convention.

    I believe we are already beginning to see progress from the efforts 
of this working group, particularly in the area of coordination with 
the Department of State. For example, as a result of increased 
communication, USCIS and the Department of State have agreed to provide 
joint quarterly updates to the Congressional Coalition on Adoption 
Institute concerning implementation of the Hague Convention, and on 
other pressing issues facing intercountry adoption. The first of these 
updates is scheduled for June 12.

                            COUNTRY UPDATES

    Because of this committee's and the public's interest in 
intercountry adoption in China, Indonesia, Vietnam, and Cambodia, it is 
important to highlight the various processes and issues with 
intercountry adoption in these countries.
China
    Of the countries that currently participate with us in intercountry 
adoptions, China generally is viewed as the most efficient, 
predictable, and transparent of all countries. In terms of U.S. 
involvement in this process, much of the credit for this positive 
reputation goes to the Adopted Children's Immigrant Visa Unit (ACIVU), 
a subunit of Department of State's consular section in Guangzhou, which 
is supported by USCIS overseas personnel. ACIVU works closely with the 
China Center of Adoption Affairs (CCAA), the Chinese Government 
authority that oversees foreign adoptions to ensure an effective 
intercountry adoption process.
    The Guangzhou consulate adjudicates orphan petitions and conducts 
orphan investigations for all children adopted by United States 
citizens in China. More immigrant visas for adopted children are 
processed in Guangzhou than in any other post in the world. In fiscal 
year (FY) 2005, Guangzhou issued 7,906 visas to adopted children 
immigrating to the United States.
    According to information posted on CCAA's Web site, the current 
wait time for the referral of a child for adoption is about 11 months--
up from about 8 months only several months ago. CCAA has attributed 
this increase in wait time to three factors: (1) An increase in 
intercountry applications; (2) a finite number of children; and (3) an 
increase in domestic adoptions. CCAA has not speculated about whether 
wait times will continue to rise in the future. Rather, they stress 
that their policies are transparent, and that they do not impose quotas 
on intercountry adoptions. Given this situation, the Intercountry 
Adoptions Working Group, in conjunction with partners at Department of 
State, has begun to examine the adoption processes to identify 
opportunities for streamlining that will reduce the impact on U.S. 
citizens of longer CCAA processing times.
Indonesia
    Indonesia has strict guidelines and laws that prospective adoptive 
parents must meet, including such requirements as being a resident in 
Indonesia for at least 2 years with a permit issued by the local 
authorities and a letter from the U.S. Embassy in Jakarta (a statement 
of domicile). Indonesian law stipulates that an adoptive child must be 
of the same religion as the adoptive parents; where the religion of the 
child's natural parents is not known, the child will be deemed to be 
Muslim. These are only some of the many requirements that prospective 
adoptive parents must fulfill and follow, but I will defer to my 
colleague from the Department of State to address more fully the 
current situation in Indonesia.
Vietnam
    On June 21, 2005, the United States and Vietnam signed a bilateral 
agreement to resume intercountry adoptions--ending a 2\1/2\-year 
moratorium. Under the agreement, which entered into force on September 
1, 2005, the United States and Vietnam recognized:

  <bullet> Intercountry adoption is an appropriate measure to provide 
        children with a permanent family when an appropriate family 
        cannot be found in their country of origin;
  <bullet> Both countries needed to take appropriate measures under 
        their respective laws to prevent and deal with actions of 
        adoption abuse; and
  <bullet> Both countries share responsibility for implementing 
        measures to prevent improper financial or other gain as a 
        result of working for and receiving orphans, and to penalize 
        such practices.

    The Vietnamese Department of International Adoptions (DIA), within 
the Department of Justice, is the Vietnamese Government entity 
responsible for overseeing and authorizing all adoptions by United 
States citizens. The goal is to eliminate the possibility of contact 
between the adopting and biological parents, which could allow for the 
possibility of child selling.
    Since the agreement took force on September 1, 2005, the U.S. 
Government has received 22 requests for immigrant visas in adoption 
cases from U.S. citizens. On January 25, 2006, the U.S. Embassy in 
Hanoi issued the first immigrant visa to a Vietnamese child adopted by 
a United States family under the agreement. USCIS is extremely pleased 
with these developments and, with Department of State, will continue to 
monitor the progress of safe and well-maintained intercountry adoption 
in Vietnam.
Cambodia
    On December 15, 2001, the then-Immigration and Naturalization 
Service (INS) imposed a suspension on intercountry adoptions from 
Cambodia due to evidence of baby selling and corruption in the adoption 
process. A joint State Department-INS task force was then formed to 
process all cases of American citizens whose Form I-600A (Application 
for Advance Processing of Orphan Petition) to adopt an orphan from 
Cambodia had been approved prior to December 31, 2001. Over the next 3 
years, this joint task force, working with the Royal Government of 
Cambodia, processed over 400 cases. The task force completed its 
mission and was disbanded on August 31, 2004.
    Currently, with the dissolution of the joint task force, no further 
cases involving orphans from Cambodia will be processed by either the 
Department of State or by USCIS. This means that there will be no 
processing of orphan petitions (Form I-600) and/or immigrant visa 
applications for Cambodian orphans until the suspension on intercountry 
adoptions from Cambodia is lifted.
    The U.S. Government stands ready to provide guidance to the 
Cambodian Government in both establishing an improved child welfare 
system and enacting and implementing Cambodia's pending adoption 
legislation. We believe that this plan will yield positive results, 
once the Cambodian Government begins to move forward on this issue. To 
that end, the U.S. Embassy in Phnom Penh will continue to remain 
engaged with both the Cambodian Government and UNICEF. In addition, 
USCIS has offered to provide technical assistance in any way that might 
be helpful as Cambodia looks to move forward on these issues. I defer 
to my colleagues from Department of State to discuss in more detail the 
current situation with Cambodia.

THE CONVENTION ON PROTECTION OF CHILDREN AND COOPERATION IN RESPECT OF 
                INTERCOUNTRY ADOPTION (HAGUE CONVENTION)

    In reviewing intercountry adoptions, it is necessary to discuss the 
Hague Convention. The Hague Convention is a multilateral treaty that 
was adopted on May 29, 1993. The Convention covers the adoption of a 
child who habitually resides in one Convention country by adoptive 
parents who habitually reside in another Convention country, when the 
child is going to immigrate to the adoptive parents' country as a 
result of, or for the purpose of, the adoption. The Convention 
establishes certain internationally agreed-upon minimum norms and 
procedures. The goal of the Hague Convention is to protect the 
children, birth parents, and adoptive parents involved in intercountry 
adoptions and to prevent abuses.
    The United States signed the Hague Convention on March 31, 1994, 
signaling its intent to proceed with efforts to ratify the Convention. 
In September 2000, the Senate consented to the President's ratification 
of the Convention, but the Senate conditioned this consent on the 
adoption of the laws and regulations necessary to carry out the 
principles of the Convention.
    On October 6, 2000, President Clinton signed the Intercountry 
Adoption Act to, among other things, establish the domestic legal 
framework for implementing the requirements of the Hague Convention. 
Since that time, efforts have been under way to issue Federal 
regulations to set forth:

  <bullet> The requirements entities must meet to qualify for 
        designation to accredit or approve adoption service providers;
  <bullet> The standards agencies and individuals must meet to become 
        Hague Convention accredited or approved as adoption service 
        providers; and
  <bullet> The procedures for adoptions to and from the United States.

    I will address the third point--the procedures for U.S. citizens to 
adopt children from ``Hague'' countries, as this is where USCIS has 
responsibility. Under the Intercountry Adoption Act, USCIS is 
responsible for regulations addressing:

  <bullet> Determination of the suitability of a prospective adoptive 
        parent to adopt a child from another Hague country; and
  <bullet> Adjudication of a petition to classify a child as a ``Hague 
        child.''

    USCIS is currently working to implement these two responsibilities, 
and is consulting closely with the Department of State on the overall 
implementation framework and timeline.
    That said, I would like to take this opportunity to address the 
addition of the ICARE Act to S. 2611, the Comprehensive Immigration 
Reform Act of 2006, recently passed by the Senate. While DHS shares the 
goals of the drafters to improve and streamline the intercountry 
adoption process for U.S. citizens, while protecting the best interest 
of the children, we are concerned that introduction of such dramatic 
changes into the intercountry adoption process while the U.S. 
Government is in the midst of implementing the Intercountry Adoption 
Act could significantly delay ratification of the Hague Convention. In 
addition, the citizenship provision of the ICARE Act, which provides 
for automatic acquisition of citizenship by adopted children upon a 
full and final adoption in a foreign country, is particularly 
troubling. It eliminates an important ``check'' from the U.S. 
Government process for recognizing acquisition of citizenship by 
adopted children--the admission of children to the United States for 
permanent residence. This important step in the process allows the U.S. 
Government to review foreign adoptions and refuse to recognize them for 
immigration purposes when fraud, public welfare, or other particular 
issues are present. Without this step, foreign governments would have a 
larger role in the decisions about which adopted children automatically 
acquire U.S. citizenship.
    Rather than risk a delay to ratification of the Hague Convention, 
the ICARE Act, particularly the U.S. citizenship portion, should be 
reconsidered at this time. By waiting until after implementation of the 
Intercountry Adoption Act and ratification of the Hague Convention, we 
will have an opportunity to fully assess the reforms necessary to 
strengthen the intercountry adoption process in the United States.

                               CONCLUSION

    As the committee can see, intercountry adoptions require a 
multifaceted and complex process. USCIS, in partnership with the 
Department of State, is working first and foremost to protect children, 
birth parents, and adoptive parents involved in the intercountry 
adoptions and to make the process as well-maintained and efficient as 
possible. Thank you again for the opportunity to speak with you on this 
important subject. I am happy to answer any questions you may have.

    Senator Murkowski. Thank you, Mr. Divine. Appreciate your 
testimony here this afternoon, and your personal perspective. 
Couple questions here this afternoon. Ms. Barry, I had 
mentioned the situation in Cambodia, and the moratorium that is 
in place. You have spoken to that--indicated that the 
ambassador has been involved in working with UNICEF. What 
specifically, in terms of the Government agencies, have been 
involved in any form of negotiations with the efforts with 
Cambodia? And from the Cambodian perspective, on their side, 
what agencies within Cambodia have been responsive to the 
discussions that have been going on, whether it is law 
enforcement, the police, judiciary? If you can just give me a 
little more detail into the status of where we are with 
Cambodia?
    Ms. Barry. Yes, of course I would be happy to give you some 
more background on Cambodia. The United States Embassy in 
Cambodia does have several agencies represented there for this 
particular issue. The main players have been the State 
Department officers. Under the direction primarily of the 
ambassador. The various ambassadors we've had there have all 
taken a very personal role on this particular issue. And USAID. 
As we step back from the suspension and the processing of the 
pipeline cases, and took a look at what we thought needed to be 
done, we decided not to focus on the legal framework, because 
UNICEF had taken a very proactive role in working on that 
problem. And so we got together with UNICEF and we agreed that 
we would support them, but allow them to take the lead on that, 
working with the legislature of Cambodia on that particular 
issue.
    Then we thought it was a good idea to sort of define the 
problem. Just how many children in need are there, what is the 
nature of their needs, and where are they? And so that was the 
idea for what turned out to be the USAID-funded survey of 
children in need. And so we started that. And, in fact, it was 
Holt that was asked to actually do the work, to go out and 
about through the countryside and do that survey. We turned the 
survey over to the Government of Cambodia, hoping that would 
then allow them to start to define the type of executive agency 
that would be needed to step up and do child welfare.
    They have an agency, which we call by its acronym, MOSALVY, 
which does social welfare and children, and which was the 
agency involved in adoptions earlier. But it was not acting in 
a professional manner, had no internal controls that we could 
see, and that was what, in part, led to the baby buying and 
selling.
    The other player that we would look to would be law 
enforcement, because if you are talking about document fraud, 
if you are talking about facilitators who are engaged in 
criminal activity, the only one who can shut them down is an 
effective law-enforcement arm. Although on our side, the U.S. 
Government stepped up, primarily through the work of then-INS, 
and got criminal convictions on our side for those who had 
abused the adoption process, no one in the law enforcement 
community in Cambodia has stood up to shut down anybody who was 
abusing the process in Cambodia.
    So to this day, we do have interest in the legislature to 
get the legal framework in place, and UNICEF continues to take 
the lead on that. We continue to work very closely with the 
executive branch of Government to work on the social welfare 
structure that needs to be put in place. There hasn't been as 
much activity as we would like to see on the part of the 
Cambodian Government. We are looking for more demonstration of 
political will to actually put some real effort into this, but 
we will keep trying. We will keep trying. And in part, we think 
that the legislation is important because it will define who, 
at the executive level, will have the oversight responsibility. 
But we are trying to keep several efforts going simultaneously.
    Senator Murkowski. What thresholds does the State 
Department or Homeland Security use in determining when a 
country is no longer suitable for adoptions? What do you 
specifically look to? We have mentioned the baby trafficking in 
Cambodia, obviously, but is there a threshold where you say 
``We are cutting it off, and there is now a moratorium in 
place''?
    Mr. Divine. Cutting off all adoptions for a country is 
obviously an extraordinary measure, and it is very rarely used. 
There is not a set criteria or a checklist. I think it's an 
overall determination. Every country is unique, and you know, 
that sounds like an agency to say that, but I think 
transparency is probably the key. If you cannot see into what 
is going on, you cannot trust what is going on, and especially 
when you also know that there were a lot of bad things going 
on. Until you can see better systems that will prevent bad 
things, then it is hard to open it up, because you have got a 
serious possibility of encouraging the very market that you 
don't want to foster.
    Senator Murkowski. Back to you, Ms. Barry, with the 
ratification of the Hague Convention. You have mentioned the 
expectation that 2007, sometime during that period, recognizing 
as Senator Craig has mentioned that it has been 10 years in the 
making--are we certain as to that timetable, or the timeframe 
of 2007?
    Ms. Barry. Yes, I will say I am confident that we will make 
that deadline. And the reason I say that is because the 
regulations that I mentioned that we are going to publish this 
summer are much less complex than what we've been through in 
setting standards for the adoption service providers. The first 
regulation that you will see is modifying the visa process, and 
we are really not so much modifying the process, as simply 
recognizing the definition of ``orphan'' from the Hague 
Convention into the regulatory framework for visas. So that's a 
very short regulation, will not be controversial, and we will 
be able to finalize that, I'm certain, this calendar year.
    The other one concerns children leaving the United States 
who will be adopted elsewhere. And the Convention, as you may 
know, requires a certification process between the two 
governments before the adoption is finalized. So we will be 
proposing in that regulation to the American public, how we 
propose to do that. We think we are going to propose something 
fairly straightforward, and again I don't think see that it 
will be a controversial issue.
    And then the third one goes to a requirement of the 
intercountry adoption act, that we have a mechanism to track 
cases, both incoming and outgoing cases. Since we use 
automation extensively now for the immigration of adopted 
children into the United States, that is not a difficult step 
for us. But we will explain again in a short regulation how we 
intend, in general terms, to do that. So I am confident that 
that regulatory framework will be wrapped up by the end of the 
calendar year. As I said, the wildcard, so to speak, for when 
we can actually ratify is the accreditation process--how many 
adoption agencies will step forward to seek accreditation, 
because they will all have to be inspected by the accrediting 
entities.
    So is it 50, is it 100, is it 150? We will know that number 
by the end of summer, and then we can come back and tell you 
and others much more specifically, based on the professional 
evaluation of the accrediting entities, how long that process 
is likely to take.
    Senator Murkowski. And then one final question. This was 
after the tsunami, you know, in Indonesia, the adoptions coming 
out of Indonesia and Thailand were suspended. Can you tell me 
what the current state of affairs is on that? And I have to 
assume that from the State Department's perspective, there were 
a fair amount of lessons learned with that process. If you can, 
do speak very briefly to that?
    Ms. Barry. The suspension on adoptions from the countries 
hit by the tsunami was a suspension by the governments of those 
countries, not by the U.S. government. So if I could just make 
that clear for the record. Adoptions are now available, in 
principle, in all countries that were hit by the tsunami, but 
American citizens, in looking at the State Department 
information that we have on each country and the adoption 
process in place in each country, will find that the process in 
those countries is very different.
    Senator Murkowski. Different post-tsunami than it was pre-
tsunami?
    Ms. Barry. No, it did not change. Indonesia, for example, 
has always had a residency requirement for adoptive parents, 
and it is a fairly strict residency requirement, and so it is 
not attractive to American families to move to Indonesia for a 
significant period of time. But it is available. It is an 
option.
    Senator Murkowski. What about Thailand?
    Ms. Barry. Thailand is--we have our statistics that we 
submitted for the record, if you would give me a second to look 
them up. I don't believe we have seen any significant change in 
Thailand over the years. They actually relatively quickly were 
able to identify the children in need because of the tsunami 
and they responded very quickly. So for example, in 2004, 
American families adopted 69 children from Thailand, and in 
2005, 72. So you will see there was almost no change 
whatsoever. As I said, Thailand responded very effectively to 
the tsunami, and helped their affected populations.
    And the other thing about Thailand is that the tsunami 
actually harmed a relatively small part of the country, as 
opposed to Indonesia, where much larger populations were 
harmed, and badly harmed, obviously, by the tsunami.
    Senator Murkowski. Thank you.
    Mr. Divine, I appreciate your perspective. Thank you for 
the personal side of it, as well. It is one thing to be working 
within a department, within an agency and recognizing that you 
are part of a bureaucracy, but also to wear another hat--the 
hat of a parent, of an adoptive parent--to recognize that you 
may be part of the problem, and how can you fix it, and to know 
that you have been proactive in forming a working group to try 
to figure out how you do make for a more streamlined process, 
provide for the questions, and to try to meet the needs of 
those that are trying to fulfill their dreams by having a child 
and having the family.
    Can you give me a little bit of insight, then, either from 
your bureaucratic side or from your adoptive parent side, in 
terms of the average timeframe that it takes for an application 
for an international adoption to be processed? And I am just 
looking for averages. It probably differs from country to 
country.
    Mr. Divine. And part of the problem is that there are 
several steps in the one process, and things have to coalesce 
before we can approve that first part, where we bless the 
family as able to participate on the other end and in the 
country--to say ``You are fine to be an adoptive family.'' 
Because they have to have their papers to say who they are. We 
send them to a local fingerprint station--we call it an 
application support center--and they have to have their home 
study completed and sent to them.
    And I know in my home State of Tennessee, I was forever 
receiving calls from families who were complaining that the 
immigration service was not doing anything on their case, and 
why were they not doing it. And it turned out that what was 
happening is that the home study which had been done by the 
child placement agency--and the family knew it--had been sent 
to Nashville, to the interstate compact office, that had to 
then be the one to send it to the immigration office, and those 
people had not forwarded it on. So the immigration office had 
not received it, but the customer did not know that they had 
not received it.
    And so one of the things that is pretty obvious to do is 
just to put in a few little customer service steps to say, ``We 
got your home study.'' So that they know that all of the pieces 
are in. Another piece is just to figure out where we should 
suggest to people, where in the process we should send people 
to get their fingerprints done. Because, you know, there is a 
tension there. We want to go ahead and get the fingerprints 
done so that when their home study comes in, it is all done and 
we can approve it and send them on their way. But at the same 
time, if it is going to be a long time before, say China, makes 
the child available for them, the fingerprints could expire. 
And we need to balance that, and we need to figure out what is 
optimal. And also, I want us to give people options so that 
they can be part of the process of gauging for themselves, 
because each country is different, and the parents may be a lot 
more attuned to the situation. Those are little examples, but 
it is surprising how much they can matter.
    Senator Murkowski. That is one of the issues that we have 
learned with the China situation--where we are seeing the 
process take longer than that 18 months to be approved by the 
Chinese Government--and so you have got, I guess, an 
expectation through the process here but you have got a process 
over in China that is taking longer.
    Mr. Divine. It's tough for everybody to predict how to pull 
it all together at the right time so that everything is current 
and valid at the time it needs to be, and people can go.
    Senator Murkowski. Is China the exception, then, in terms 
of the length of time that it is taking them to go through the 
approval process, as compared to some of the other countries 
that we are seeing so many of our foreign adoptions come from?
    Mr. Divine. Well, I can't claim to have a comprehensive 
country-by-country perception of this, but my sense is that 
China is the one country that has been sending the most 
children--that has had a significant slippage in the period of 
time that it takes for a family to be able to go and meet their 
child. And that has been a function as I understand it of 
conditions in China, not a function of anything the U.S. 
Government is doing.
    Senator Murkowski. Can you tell me, give me a for instance, 
which countries are perhaps more cooperative in DHS 
investigations, which ones are really difficult to deal with, 
and perhaps the reasons why?
    Mr. Divine. Well, let me be positive first, anyway. I think 
China is a good example of a country that has been very 
involved, and while there has been one incident, their reaction 
to it demonstrated their commitment to the integrity of the 
process, and so that's on the positive side, and I think that 
my understanding is that--and I am not a Hague Convention 
expert yet--but my basic big picture understanding is that the 
Hague Convention is going to make adoptions for participating 
countries look more like Chinese adoptions in a sense, because 
the country of the child is going to be more involved, 
centrally ensuring that the conditions out of which the child 
is coming are appropriate for adoption. But my colleague may 
have more useful things to say on this.
    Ms. Barry. If I may comment on China. One of the issues is 
that we do not have the full picture, because we are one of 
several receiving countries. So we know how many United States 
files have gone to the Chinese authority for adoptions. We have 
no idea how many files they have received from Western Europe, 
the Nordic countries, Australia, New Zealand. In other words, 
the other receiving countries.
    And so that is unknown to us so we cannot predict exactly 
how long China will take. As you said, the timelines have 
changed a bit, and I think that is a reflection that China is 
receiving files, probably more files from American families, 
and more files from other receiving countries as well.
    Senator Murkowski. Do you think that we can expect that the 
timeframe in which China is able to approve will be reduced? 
Are things getting better or are things getting worse, in terms 
of the timeframe?
    Ms. Barry. It has gotten somewhat worse, and I think we 
will simply know that over time by maintaining good 
communication with the Chinese central authority. Our goal is 
to have the best information available to the prospective 
families, so that whether it is 15 months or 18 months, I think 
it is most important that families know that. We will continue 
to talk about how we can improve the process with the Chinese 
to, you know, to keep it at the lower end, but I think we do 
have to be mindful of the fact that there is a larger process 
going on. It is not simply a United States-Chinese 
relationship.
    Senator Murkowski. Thank you. Mr. Divine. One final 
question for you. This relates to the October 2005 GAO report 
that found that USCIS didn't have a formal quality assurance 
program in place to review the quality of the adoption process. 
Has this aspect been addressed, or is it being addressed?
    Mr. Divine. I have to confess that apparently that is one 
of the things that the working group is definitely onto. And 
let me say about the working group--it is not one of these 
things where, you know, we have to look like we are doing 
something, so let us round up some people, you know, put them 
in a room and act like we are doing something. We have pulled 
in the people who care about this, full-time, for months and 
months--the person in Buffalo who really spearheaded this 
process of giving citizenship certificates to people, and she 
is riding herd on this regulation, full-time. I mean, this is 
several people. This is not just a tangential effort. I really 
want this done, I want it done right, and I want our agency to 
be a more centralized and coordinated effort, of the type that 
I think the ICARE envisions this other organization in the 
State Department would be.
    And my view is, if we can just get that working, you 
wouldn't be able to be able to tell the difference between that 
and whatever else you might try to come up with. Doesn't matter 
so much which agency it's done in----
    Senator Murkowski. As long as it's done?
    Mr. Divine [continuing]. As long as is done, and done 
right. One of the problems, and this is part of our bigger 
picture, that, you know, our systems have not been great, and 
this is one of the few types of cases that have been filed 
locally, and are not on any database, except whatever local 
database the little office has. We have a lot of opportunity to 
put order into this and systematize it, because of how 
decentralized it has been. You know, we have got a lot that we 
can do, and we are going to do it.
    Senator Murkowski. Senator, thank you. Thank you to both of 
you for coming this afternoon, and providing your testimony--
your efforts.
    With that, I would like to invite Senator Mary Landrieu. As 
I mentioned earlier, the Senator has been a leader on adoption 
issues here in the Senate. We greatly appreciate her work. 
Senator Landrieu, Senator Craig was able to join us at the 
beginning of the hearing, and certainly lauded you for your 
efforts, as I certainly concur--certainly agree with. Thank you 
so much for joining us this afternoon. I know we have had to 
adjust schedules a little bit so I appreciate you working us 
into yours.

  STATEMENT OF HON. MARY LANDRIEU, U.S. SENATOR FROM LOUISIANA

    Senator Landrieu. Well, thank you, Madame Chair. And I 
really appreciate you taking the initiative to have this very 
important hearing today. It is a subject that I am sure that 
Senator Craig shared with you, that we think is so important, 
and doesn't get the attention that it really deserves and needs 
here in Congress. Of course there are many important issues, 
but for families that have built their families through 
adoption, for many child welfare advocates here in America and 
around the world, and any number of other agencies, entities, 
nonprofits, and individuals, this is the most important issue, 
because they really believe that adoption is such a positive 
outcome for so many children and families of the world--that 
the uniting of the families is so beneficial for the parents 
and the children, and the need is so great, as you know.
    Here in the United States, today, we have 500,000 children 
in foster care, ages 0 to 18. About half of them are waiting 
for families to come adopt them. Orphans--their parental rights 
have been terminated. They don't have parents, and they are 
waiting to be adopted.
    And so Senator Craig and I, and 190 Members of Congress 
have spent a great deal of time trying to educate ourselves 
about adoption, and trying to educate the country about the 
benefits of trying to connect children with families, because 
we think governments here in the United States and around the 
world do a lot of things well, but raising children isn't one 
of them. That parents or parent, preferably responsible, 
loving, nurturing adults, should raise children--should raise a 
child or children.
    In addition, the new policy around the world appears to be 
to keep sibling groups together. That can be quite a challenge 
if the sibling group is 8, or 6, or 10. But we are making a 
great effort to not only have children adopted, but keeping 
sibling groups together. And China, I have to say, has been 
really extraordinary as countries go in the world, in being 
willing and able to participate in this process.
    As you know, 120,000 children are adopted every year in the 
country. Twenty thousand of those come from other countries to 
the United States. Approximately 100,000 children are adopted 
within our own country. And about 20,000--and that number has 
increased dramatically over the last 15 years--but in our view, 
as adoption advocates, we do not think that number is nearly 
high enough. We have not set, as a coalition, a target, but our 
stated and unstated goal and just, you know, focus, is to find 
a home for every orphan in the world. So we have a long way to 
go.
    And that is why I get so frustrated, and so does Senator 
Craig and members of our coalition, when bureaucracies slow 
this process down for no good reason. Sometimes there are good 
reasons to slow the process down. You want to eliminate fraud, 
you want to eliminate crime, criminal behavior. But if we have 
a process that is so full of red tape, bureaucracy and 
paperwork, et cetera, and if we stop the process every time 
there is one violation, we will never create a system in this 
country or the world that gives a chance for kids who are 
desperate for parents, and parents who are desperate for 
children, to find each other.
    And so I'm here, and I have a written statement, but I 
really would rather just focus on two specific things about 
China, because our delegation has been to China, and I have 
been in touch annually with Chinese officials, since 10 years 
ago, and trying to work closely with them and encourage them to 
keep this very mutually beneficial relationship going.
    And what do I mean by that? China, as you know, has a 
population challenge, and they also have a one-child policy, 
which has been somewhat liberalized, thank goodness, these 
days, but they just have millions of children that need homes. 
And we have millions of Americans that are able and willing and 
want to adopt children.
    Number two, besides the obvious need, that of connecting 
parents that want kids and kids that need parents, I have 
explained internationally that these children become the most 
effective ambassadors for these countries when they come to the 
United States, without saying or doing anything. The childrens' 
presence softens and opens up America's eyes to China, and to 
Korea, and to Vietnam, and to Guatemala--which is not the 
subject here, you know. It is Asia--more than I can tell you.
    And I will share one story for the record. I was in 
Louisiana, as you know. You are always in Alaska. But 3 years 
ago, I was in a tiny town called Bawcomville, that you will 
never hear or see anywhere, and it is right outside of Monroe, 
and a city council member from Bawcomville came up to me and, 
you know--just a good old boy from Louisiana--he threw his arms 
around me and he says, ``Senator, I voted for you, I will 
support you. I am appreciative of everything you've done. I 
want you see a picture of my grandchild.''
    So I am sort of half paying attention and I look at this 
picture. And this is a baby, clearly, I can see, from China. 
And I looked at him, and he looked at me, and I said, ``And so 
we went to China for this baby?'' And he said ``Oh, yes. And, 
you know, my daughter went, and this baby is the apple of our 
eye. And this baby is the special child in Bawcomville.'' And I 
am thinking that this is something, Bawcomville to Beijing, 
Beijing to Bawcomville, and how they are now celebrating, you 
know, this child in this town that you wouldn't necessarily 
think was on the cutting edge of international adoption.
    But I am telling you, America, little towns to big cities, 
parents are adopting children domestically and internationally. 
China asked me when I was over there if our State Department 
could help them--if we could move the center from Guangzhou to 
Beijing, so our parents do not have to travel back and forth. 
It is our decision, not China's decision. Our State Department 
has not done that yet, so I want to go on the record urging our 
State Department to do that, if possible.
    Also, they said that because China deals with this in a 
very centralized way, and our system is very decentralized with 
our 50 States, we respect that. We need to keep it that way. 
These agencies are licensed by the State. But we have worked 
now for many years to try to encourage the State Department 
here to assume a more centralized role with respecting the 50 
States, not trying to step on the toes of our 50 States, but 
they have got to come up with a streamlined, central State 
Department, and not three different departments, and not three 
different entities, but one. We think the State Department 
knows what the treaty says--what is in the Hague 
implementation--and really now the President. We just have to 
get this implemented. This bill that we have been trying to 
pass for 5 years called the ICARE bill. It is broadly supported 
by Democrats and Republicans, and yet our State Department 
continues to push back.
    So I am sorry I was not here for questioning of the State 
Department, but I am going to pursue the lines of questioning 
and writing to them as we work through this, because the 
countries that we work with all over the world are creating 
these more centralized systems, and they have to work with a 
national, centralized agency, and they cannot work with 50 
States. China cannot work with California one day, then New 
York another day, and then North Dakota another day, and then 
Louisiana. They are just not organized that way.
    So I understood that we cannot do everything these other 
countries ask, and we have to respect our own country, but as a 
Senator who believes in this, I have had to figure out a way to 
get countries to a common ground. And so I am asking our State 
Department to move a little more quickly to help China to 
continue to be the largest sending country to the United 
States. The last I looked, China sent 8,000 children for us to, 
you know, to become American citizens. We are so grateful that 
parents have adopted these children.
    I was literally stopped today, 2 hours ago, but this 
happens to me every day. I went to give a speech to a Des 
Moines, IA group. Before I could even walk in the door, a woman 
running the association said ``Thank you, Senator. My 3-year-
old is from China,'' and we had to talk for a little bit--how 
parents do about their kids--and she was telling me how tiny 
she is and how little she is, but how beautiful she is, and how 
smart she is.
    And she's got a 10-year-old--and I can tell you this whole 
story which I won't--but this happens to me every day. And then 
she said, ``Please, Senator, please continue to fight for 
shorter times, less paperwork, less finances. These children 
need us and we need them.''
    So I just want to encourage you, Madame Chair, in your role 
on this committee, to please continue to focus on South Korea, 
and Vietnam, and China, and East Asian countries. But I promise 
you that we want to focus on all the countries of the world, 
because we believe that many countries need to find places for 
children, and we need to do a better job in our country of 
finding homes for the 250,000 children who are now available 
for adoption, and we believe we have an obligation to provide a 
family for them, and a future for them.
    So I want to continue to help. I will be happy to answer 
any questions that you might have, and our whole 190 Members of 
Congress are committed--and it is amazing in this caucus. It is 
the only one I belong to that does not argue. And we have 
Democrats and Republicans, and everybody just is happy, and we 
all get along because we just literally do not argue about it. 
We are all together trying to make this work, and it is a happy 
caucus, and we are happy to testify any time that we can help 
on the subject.
    Thank you.
    Senator Murkowski. Again, I want to thank you for your 
leadership in this area--so very, very vitally important. Just 
very quickly, I would like you to comment on a statement that 
was made by Mr. Divine from Homeland Security. He commented on 
the ICARE legislation, and he indicated that from Homeland 
Security's perspective, that one of the concerns was the 
automatic citizenship determination.
    Senator Landrieu. Absolutely. Why we feel very strongly 
about this is because, you know, if you went overseas as an 
American citizen and you were pregnant and had the baby in a 
country, that child might not be born in the United States, but 
he's an automatic citizen of the United States because that is 
the law. When an adoptive parent goes to adopt a child in China 
and that adoption is finalized in China, that child is at that 
moment, as an adoptive parent, at that moment--under most laws, 
not all--is the child of that parent right away. There is no 
waiting period.
    Now, domestically, when we do an adoption, some States 
require a 3-month wait until it is completely finalized by the 
law. You can understand why that might be the case for domestic 
adoption, but in international adoption, that is a final and 
forever and ever and ever. That is your baby, that is your 
child, and we think he/she should be an automatic citizen. 
Right now parents have to go through the court process, or 
whatever the process of the country of option, then they had to 
file additional paperwork for their child to become a citizen. 
It does not make any sense.
    So we wanted to reduce paperwork and the time and make that 
automatic. And so that's my answer--it's the same way a 
biological child would be brought back. You don't need a visa 
for your newborn coming back from wherever you were overseas--
you do not need a visa. That child has a special visa. You 
might need a passport to get the child back. I think that you 
don't need a special visa application. It is just another step 
that adoptive parents go through for no real good reason.
    But I want at least to say one other thing. I have tried to 
explain this to the State Department. It is not just this 
current State Department, it has been a problem with all the 
State Departments I have worked with. And I understand the need 
to focus against fraud.
    Believe me, nobody wants to eliminate fraud more than our 
delegation, our whole caucus, but I want to say this for the 
record: When a bank is robbed in Chicago, we do not shut down 
the banking system. We go find the bank robber, and we put them 
in jail. Every time there is one stealing of a baby, or you 
know, one violation of a crime, everybody starts shutting down 
international adoption. And we don't realize, when they do 
that, they literally sentence children to death, literally. And 
they disrupt the lives of thousands of good tax-paying church-
going American citizens, who are just to the end of their 
process, and then somebody steps up and says ``Oh, we have a 
suspicion that 10 babies were taken illegally, so we are 
shutting the system down.''
    It is the worst shock to the system, and we do not do it 
anywhere else. And I'm going to fight against these closures 
that we keep going through, and we need to keep the system 
open, transparent, and it is a literal lifeline to children, 
and a happiness line for parents.
    The second thing I wanted to say is all of this negative, 
that this--every time we have an incident, one adopted child, 
you know, was hurt in America--I hate to say this because it's 
a hard thing to say, but I tell international people that come 
into my office all the time--they tell me ``Senator, how do we 
know our children will be safe, how do we know that you will 
take care of our children? How do we know that you all do not 
just adopt the children''--they think for body parts sometimes. 
I try to calm them down, saying that we have a free press, ``If 
we were taking body parts from children, you would know about 
it--our press would write about it. It doesn't happen,'' I 
said, ``but every now and then, of course, a parent will do the 
wrong thing and hurt a child. Sometimes they hurt adopted 
children.''
    But I hate to tell you all this, and it is hard for me to 
say it, but Americans kill their own children. Seventeen 
hundred children are murdered every year in the United States 
at the hands of their own parents. I mean their biological 
parents. So I hope the State Department understands that if you 
are looking for a perfect system where children are never hurt 
we will never get there. We just have to have a system that 
works 95 percent of the time, does everything it can, because 
if we are trying get this adoptive system to be perfect when 
the normal world is so imperfect, then all we will have is 
millions of orphans sitting around in orphanages, literally 
wasting away, and millions of parents that would love to adopt 
them, and we cannot get them together because we have got 
bureaucrats running around wanting a perfect system. So I am 
sorry I went on about that, but any other questions?
    Senator Murkowski. I appreciate your passion. I think we do 
see this ripple effect, if you will, from allegations, or 
reports of baby trafficking in one country, that do threaten to 
undermine international adoptions, not necessarily just from 
that country, but from other countries as well. All of a 
sudden, all the flags go up and everyone is ultracautious, and 
of course we do need to be cautious--we do need to be making 
sure that everything we do is in the best interest of the 
child.
    But we need to make sure that it is not an overreaction to 
hopefully very, very isolated instances, and in an effort to 
make sure that we do not ever have that problem again, that as 
you point out, we seal it off, and the ones that really do 
suffer are the children and prospective adopted families that 
wanted to adopt these children. So I appreciate your passion on 
this, and all your good work. Thank you so much for spending 
the time here before the committee.
    Let us next go to--I guess it is our last panel here this 
afternoon. We have Mr. Thomas Atwood, who is the president and 
CEO for the National Council for Adoption, as well as Susan 
Soon-Keum Cox, the vice president of public policy and advocacy 
for Holt International Children's Services. Welcome to the 
committee this afternoon. Thank you for time. Mr. Atwood, why 
don't you go ahead and present your testimony, please.

STATEMENT OF THOMAS ATWOOD, PRESIDENT AND CEO, NATIONAL COUNCIL 
                  FOR ADOPTION, ALEXANDRIA, VA

    Mr. Atwood. Thank you, Madame Chairman Murkowski. My name 
is Thomas Atwood. I am president and chief executive officer of 
the National Council for Adoption, NCFA. I thank you for the 
opportunity to testify. NCFA applauds the subcommittee's 
interest in the compassionate practice of intercountry 
adoption. An adoption research, education, and advocacy 
organization founded in 1980, NCFA has been involved in 
improving the intercountry adoption system since the early 
stages of the drafting of the Hague Convention, and right on 
through the enactment of the Intercountry Adoption Act of 2000.
    Since last September, we have continued the work. We have 
traveled to China, Vietnam, Russia, and The Hague, serving as a 
global advocate and expert on adoption and child welfare. 
Adoptions from Asian countries have increased 10 of the 12 
years. At the 2000 census, 12.6 percent of America's adopted 
children living with their parents had been adopted 
internationally, 6.2 percent were born in Asian countries, and 
nearly half of them from South Korea. China and South Korea 
have been the top four countries of origin for America adoptive 
parents since 1994. In the first half of the 1990s, South Korea 
was the leading country of origin with 25 percent of all 
American international adoptions during that period. With the 
increase in adoption from China, Russia, and Guatemala since 
then, and with South Korea's recent decline in adoption, Korean 
adoptions stood at 7 percent in 2005--China has been the No. 1 
country of origin for each of the last 6 years, and either the 
No. 1 or No. 2 position every year since 1995, with annual 
adoptions by Americans ranging from 4,800 to 7,900.
    Much of the overall increase in intercountry adoptions in 
recent years has been due to increases in adoptions from China, 
with most other Asian countries either remaining steady or 
declining slightly, such as India and the Philippines, and 
others declining dramatically due to suspensions--namely, 
Cambodia and Vietnam.
    The basic tenet of intercountry adoption is that national 
boundaries and national pride should not prevent children from 
having families. This truth seems self-evident. Given the 
choice between growing up with a loving, permanent family of 
one's own through international adoption versus growing up 
without a family in the country in which one happens to have 
been born, most people would choose a family through 
intercountry adoption. To varying degrees, intercountry 
adoption encounters a streak of nationalism in every country of 
origin. To some extent, this nationalistic reaction is 
understandable. Any self-respecting nation would like to be 
able to take care of its children in need itself. Our 
intercountry adoption advocacy should be careful not to feed 
into this nationalistic caricature, that rich, presumptuous 
Americans are coming to take the mother-country's children.
    This potential pitfall argues for our Government's current 
advocacy approach, whereby the Assistant Secretary for Consular 
Affairs manages intercountry adoption as part of a broader 
portfolio. And it argues against a single-focused Ambassador-
at-Large for intercountry adoption position. It is difficult to 
see how political leaders in countries of origin would want to 
associate publicly with the American representative whose sole 
purpose is to enable Americans to adopt the native country's 
children.
    NCFA, instead, recommends a holistic approach which 
respects intercountry options as part of a country of origin's 
overall adoption and child welfare program. This approach 
presents intercountry adoption as a positive option for 
orphans, second in preference to timely domestic adoption, but 
to be preferred over domestic foster care, and group or 
institutional care. However, when a domestic adoption is not 
occurring for children within a certain timeframe, orphans 
should become eligible for intercountry adoption.
    As they implement the Hague Convention, many countries of 
origin are taking a holistic approach at their adoption and 
child welfare programs. Thus, because of our country's many 
decades of experience with child welfare policies, America's 
opportunities here go beyond promoting our own citizens' 
ability to adopt internationally. By sponsoring educational 
seminars and exchanges with our Hague central authorities, for 
example, we can promote and inform the global proliferation of 
adoption and child welfare policies.
    And Madame Chairman, here is my most important point this 
afternoon: Now that the State Department has published the 
implementing relations for the Intercountry Introduction Act, 
the top international adoption priority for the American 
Government and the adoption community should be to make a 
smooth transition to the implementation and ratification of the 
Hague Convention through these regulations.
    This will not be easily accomplished. The regulations are 
sound and will promote child protection and international 
adoption, but they are also complex and demanding. Over the 
next 18 months, the entire international adoption community in 
America will be relearning its ways of processing adoptions. 
The very complicated steps involved in making this transition 
are described in my written testimony. Further reforms may be 
appropriate once we are further along in the transition to the 
Hague Convention. But there is no compelling reason to 
implement other major reforms at this time, such as 
transferring to the State Department all of the DHS's work 
currently housed in the Citizenship and Integration Services, 
as contemplated by the ICARE amendment pending, referred to by 
Senators Craig and Landrieu. Forcing such a transition at this 
already demanding time would disrupt intercountry adoptions, 
and confuse our central authority partners around the world.
    After many frustrations with CIS, formerly INS, and the 
State Department in previous years, the adoption community now 
reports significant improvements in performance of both 
agencies. There has been greater cooperation between the two 
agencies, increased communications and more responsiveness to 
families and adoption service providers, increased 
standardization of processes across branch offices, and more 
proactive advocacy of adoption. There has been a positive 
corporate culture shift in both agencies.
    The pivotal moment of implementation of the Hague 
Convention and the IAA is here. The American international 
adoption community believes we should not jeopardize this long-
awaited transition by introducing other major bureaucratic and 
organizational reforms at this time.
    I further submit for the record, Madame Chairman, NCFA's 
letter to Senator Landrieu regarding the ICARE amendment 
expressing our concerns.
    Senator Murkowski. We will put it in as part of the record.
    Mr. Atwood. Thank you.
    [The information referred to follows:]

                             National Council for Adoption,
                                      Alexandria, VA, May 17, 2006.
Hon. Mary L. Landrieu,
U.S. Senate, Hart Senate Office Building,
Washington, DC.
    Dear Senator Landrieu: Your staff has graciously allowed the 
National Council for Adoption (NCFA) several opportunities in recent 
weeks to discuss NCFA's position on the Intercountry Adoption Reform 
Act (ICARE). As staff suggested, I am writing to summarize and explain 
this position for you.
    NCFA finds many of the tenets of ICARE to be of interest and 
potentially worth pursuing, and we sincerely respect the excellent 
intentions contained in this initiative. However, we believe that now 
is not the time to consider such dramatic changes to the intercountry 
adoption system, just as that system is in the midst of transitioning 
to the recently released implementing regulations for the Intercountry 
Adoption Act and Hague Convention on Intercountry Adoption. We believe 
that attempting to manage two enormous bureaucratic transitions at the 
same time would create confusion, reduce predictability and 
transparency, and complicate workloads to unmanageable levels for all 
responsible parties--U.S. Government agencies, adoption service 
providers, foreign central authorities, and prospective adoptive 
parents--and thereby compromise adoption and child protection.
    Another advantage of waiting to consider ICARE is that other reform 
needs may become apparent during the transition to the Hague 
regulations, reforms that could be incorporated into ICARE. I think you 
will agree that since the first draft of ICARE, the Department of State 
and Citizenship and Immigration Services (CIS) have taken significant 
steps toward addressing concerns that you and the adoption community 
share. Your introduction of ICARE has helped to produce the results of 
fewer unnecessary delays, more adoption advocacy, and a more 
constructive partnership between the two agencies.
    Senator Landrieu, we greatly admire and appreciate your adoption 
leadership and the spirit with which you offer this proposal. We know 
firsthand of your desire to provide solutions to bureaucratic 
challenges to intercountry adoption and to keep adoption high on 
America's agenda. We respectfully recommend revisiting ICARE after the 
Hague implementation is further along and its impact better understood. 
Thank you very much for your consideration.
            Sincerely,
                                          Thomas C. Atwood,
                                                 President and CEO.

    Mr. Atwood. In conclusion, if I may, I have three two-
sentence points about--my written testimony discusses salient 
issues regarding specific Asian countries in more detail. But 
first, China's and South Korea's increased emphases on domestic 
adoption and child welfare programs should be applauded, but 
America should continue to advocate in these countries that a 
family through intercountry adoption is better for children 
than domestic foster or institutional care, especially for 
younger children.
    There is a specific proposed amendment in the South Korean 
legislature at this time that would end intercountry adoption, 
end this trailblazing country for intercountry adoption, and 
this requires our urgent attention.
    Second, America's imminent ratification of the Hague 
Convention creates opportunities to increase adoption with 
countries that have said they would be interested in doing so 
when America ratifies, such as India. The American Government 
and adoption community should begin to discuss moving forward 
on this plan with the Indian central authority. And third, the 
recent progress in restarting adoptions from Vietnam is very 
encouraging. We hope that similar progress can be made in 
Cambodia, while ensuring child and birth-parent protection, and 
a legal, ethical, transparent process in both countries.
    In conclusion, Madame Chairman, the National Council for 
Adoption greatly appreciates the American Government's and the 
subcommittee's advocacy of intercountry adoption, and we offer 
our continued assistance in advancing this crucial mission.
    [The prepared statement of Mr. Atwood follows:]

   Prepared Statement of Thomas Atwood, President and CEO, National 
                  Council for Adoption, Washington, DC

    Chairman Murkowski and members of the subcommittee, my name is 
Thomas Atwood, president and chief executive officer of the National 
Council for Adoption. On behalf of the National Council for Adoption 
(NCFA), I thank you for the opportunity to testify on the subject of 
Asian adoptions to the United States. NCFA applauds the subcommittee's 
interest in the compassionate practice of intercountry adoption, which 
has found loving, permanent families in America for some 108,000 Asian 
orphans since 1989.
    The National Council for Adoption is an adoption research, 
education, and advocacy nonprofit whose mission is to promote the well-
being of children, birth parents, and adoptive families by advocating 
for the positive option of adoption. Since its founding in 1980, NCFA 
has been a leader in serving the best interests of children through 
policies that promote a global culture of adoption and child welfare, 
increase intercountry adoptions with appropriate child protections, 
present adoption as a positive option for women with unplanned 
pregnancies, further adoption of children out of foster care, and make 
adoption more affordable through the adoption tax credit.
    NCFA advocates the positive option of adoption, both domestic and 
intercountry, for children and families in the United States and around 
the world. NCFA has been involved in improving the intercountry 
adoption system since the early stages of drafting the Hague Convention 
on Protection of Children and Cooperation in Respect of Intercountry 
Adoption (1993) and the Intercountry Adoption Act of 2000. Since last 
September, we have been to China, Vietnam, Russia, and The Hague, 
serving as a global advocate and expert on adoption and child welfare. 
We are planning trips to countries of origin in Asia, eastern Europe, 
and Central and South America in the coming year.

        ASIAN ADOPTIONS AND THE GROWTH IN INTERCOUNTRY ADOPTIONS

    The number of intercountry adoptions continues to grow in the 
United States, having increased 13 out of the last 15 years. In 2005, 
the number of intercountry adoptions by Americans, 22,710, actually 
exceeded the number of infants adopted domestically by Americans, 
22,291, in 2002, the most recent year for which statistics are 
available.\1\ Increases in adoptions from Asian countries account for a 
large part of that growth, having increased in 10 out of the last 12 
years, with China leading the way with 7,939 children adopted by 
Americans in 2005. At the time of the 2000 census, 12.6 percent of 
American adopted children under the age of 18 and living with their 
parents were adopted internationally; 6.2 percent of America's adopted 
children were born in Asian countries, nearly half of them from South 
Korea.
---------------------------------------------------------------------------
    \1\ Adoption Factbook IV, National Council for Adoption, 
publication pending.
---------------------------------------------------------------------------
    China and South Korea have been in the top four countries of origin 
for American adoptive parents since 1994. In the first half of the 
1990s, South Korea was the leading country from which United States 
citizens adopted, representing 25 percent of American international 
adoptions during that period. With the increase in adoptions from 
China, Russia, and Guatemala since then, and with the decline in 
adoptions from South Korea from an average of 1,800 per year since 1990 
to 1,604 in 2005, South Korean adoptions stood at 7 percent of the 
total international adoptions by Americans in 2005.
    China has been the No. 1 country of origin for each of the last 6 
years and in either the No. 1 or No. 2 position each year since 1995, 
with annual adoptions by Americans ranging from 4,843 to 7,939. Much of 
the overall increase in the numbers of intercountry adoptions in recent 
years has been due to increases in adoptions from China, with most 
other Asian countries either remaining steady or declining slightly, 
such as India and the Philippines, and others declining dramatically 
due to suspensions, such as Cambodia and Vietnam. In 1990, Asian-born 
children made up 42 percent of Americans' intercountry adoptions; in 
2005 that proportion was 46 percent.

                   BENEFITS OF INTERCOUNTRY ADOPTION

    The benefits of intercountry adoption to children are indisputable. 
The clinical record clearly confirms what common sense tells us--that 
outcomes for children who are adopted internationally are better than 
those for children raised in institutions or in foster care. A study, 
``Behavior Problems and Mental Health Referrals of International 
Adoptees,'' recently published in the Journal of the American Medical 
Association found that even though the studied internationally adopted 
youth were referred to mental health services more often than non-
adopted youth, the effect size was small, and the large majority of 
them were ``well-adjusted.'' The researchers considered the finding 
that the large majority of internationally adopted children and youth 
were well-adjusted to be particularly significant in light of the fact 
that prior to adoption many internationally adopted children 
``experience insufficient medical care, malnutrition, maternal 
separation, and neglect and abuse in orphanages.'' Clearly, 
internationally adopted children grow up healthier than they would have 
if they remained in institutional or temporary care.\2\
---------------------------------------------------------------------------
    \2\ ``Behavior Problems and Mental Health Referrals of 
International Adoptees,'' Journal of the American Medical Association, 
vol. 293, no. 20, May 25, 2005.
---------------------------------------------------------------------------
    Empirical studies are valuable, but in this case they only confirm 
what we already know from common sense and millennia of human society: 
All children need and deserve loving, permanent families of their own. 
We can also observe intercountry adoption's benefits to children with 
our own eyes in the international-adoptive families we know personally. 
Even good institutional or temporary care cannot take the place of a 
loving, permanent family of one's own, whether obtained through 
domestic or intercountry adoption.

   HOLISTIC APPROACH TO INTERNATIONAL ADVOCACY OF ADOPTION AND CHILD 
                                WELFARE

    The basic tenet of intercountry adoption is that national 
boundaries and national pride should not prevent children from having 
families. This truth seems self-
evident. Does the child have a greater interest in remaining in his or 
her country of origin than in having a family? Given the choice between 
growing up with a loving, permanent family of one's own through 
international adoption versus growing up without a family in the 
country in which one happens to have been born, most people would 
choose a loving, permanent family through intercountry adoption. The 
love and security of belonging in one's own legally recognized and 
permanent family during childhood is fundamental to healthy human 
development.
    Adoptive parents and intercountry adoption policy can address the 
concern about losing connection with national roots by providing 
opportunities for internationally adopted children to learn about their 
countries of origin, and even to visit them, if possible, and the 
children so desire. In fact, most adoptive parents pay close attention 
to teaching their internationally adopted children about their national 
roots.
    Nationalists and opponents of international adoption sometimes 
virtually equate adoption with child trafficking. International 
adoption advocates should be careful always to make clear the 
distinction between adoption and child trafficking. Intercountry 
adoption is a professional social service, in the best interests of 
children to provide them loving, permanent families, conducted in 
accordance with child protection regulations in a transparent process. 
Child trafficking is the illegal exploitation of children and their 
parents or guardians, through kidnapping or financial corruption, to 
serve the selfish interests of unscrupulous and predatory sellers and 
buyers.
    To varying degrees, intercountry adoption advocates and 
practitioners encounter a streak of nationalism in every country of 
origin with which we work. To some extent, this nationalistic reaction 
is understandable: Any self-respecting nation would like to be able to 
take care of its children in need itself. NCFA agrees with the 
principle that domestic adoption is to be preferred over intercountry 
adoption. Whenever possible, it is preferable for children to grow up 
with loving, permanent parents and families in their countries of 
origin. However, when domestic adoption is not occurring for children 
within a certain timeframe, international child welfare principles 
suggest that they should become eligible for intercountry adoption in a 
timely manner and they should receive the best possible temporary care 
while waiting.
    In communications with countries of origin, it can be 
counterproductive solely to advocate that Americans be allowed to adopt 
their orphaned children. This approach can feed into the negative, 
nationalistic caricature--that rich, presumptuous Americans are trying 
to take the mother-country's children--which cynical politicians in 
countries of origin exploit to suspend or discourage adoptions. This 
potential pitfall argues for the current advocacy approach, which is 
working well, whereby the Assistant Secretary for Consular Affairs 
manages intercountry adoption as part of a broader portfolio, and it 
argues against the creation of a single-focused Ambassador at Large for 
Intercountry Adoption. It is difficult to see how political leaders in 
countries of origin would find it advantageous to associate favorably 
with the American representative whose sole purpose is to enable 
Americans to adopt the native country's children.
    Instead, NCFA recommends a holistic approach to international 
adoption advocacy, which respects intercountry adoption as part of the 
country of origin's overall adoption and child welfare program. In its 
communications with countries of origin, NCFA presents intercountry 
adoption as a positive option for orphaned children, second in 
preference to timely domestic adoption, but to be preferred over 
domestic foster care and group or institutional care. NCFA also offers 
to share with these countries as much as they would like to receive of 
its expertise regarding America's experience with adoption, foster 
care, and other child welfare policies. This approach has helped NCFA 
to build strong relations with several Asian countries, including 
China, Korea, and Vietnam.
    In response to their implementation of the Hague Convention on 
Intercountry Adoption, many countries are taking comprehensive looks at 
their adoption and child welfare programs. Because America has many 
decades more experience with governmental approaches to these policies 
than almost all the countries of the world, it has much to offer to 
countries of origin as they develop their own programs, if they are 
interested in learning from our experiences.
    National boundaries should not prevent children from having 
families, indeed. But in the area of international adoption and child 
welfare policy, the United States' opportunities go beyond simply 
promoting its citizens' ability to adopt internationally. By sponsoring 
educational seminars and exchanges with other Hague central 
authorities, for example, the American Government and adoption 
community can also promote and inform the global proliferation of 
adoption and child welfare policies, in the best interests of children 
around the world. The increased international cooperation and good will 
created in doing so would also likely increase international 
receptivity to Americans' adopting.

  MAKING A SMOOTH TRANSITION TO THE HAGUE CONVENTION ON INTERCOUNTRY 
                                ADOPTION

    Now that the Department of State has published in February 2006, 
the implementing regulations for the Intercountry Adoption Act (IAA), 
the top international adoption priority for the American Government and 
adoption community should be to make a smooth transition to U.S. 
ratification and implementation of the 1993 Hague Convention on 
Intercountry Adoption.
    While these regulations are sound and will promote child protection 
and international adoption, they are also complex and demanding. It 
will be mid- to late-2007 before the regulations have been sufficiently 
implemented so that the treaty can be formally ratified and entered 
into force. During that time period, the entire international adoption 
community in America will be relearning its ways of processing 
adoptions from the more than 60 Hague Convention member states. Hague 
Convention central authorities from around the world will also be 
relearning how to work with America.
    Among the new systems and challenges in the State Department's 100-
page public notice of the final rule that will have to be learned and 
managed over the next 18 months, in order to process adoptions with 
Hague Convention member states are: The establishment of the new 
central authority in the Department of State; the authorizing and 
contracting of new accrediting entities; the complete accreditation of 
adoption agencies and approval of persons who may make adoption 
placements under the Hague Convention; the adaptation of all adoption 
service providers to the rule's new standards and requirements; a new 
six-part definition of adoption services and new rules regarding four 
newly defined categories that may provide them; the establishment of a 
case registry at State and the Department of Homeland Security for 
incoming and outgoing adoptions, both for Hague Convention and 
nonconvention intercountry adoptions; new data collection, 
recordkeeping and reporting requirements, and much more.
    Other substantial reforms may be appropriate once the intercountry 
adoption system is further along in the transition to the Hague 
Convention. Indeed, as the IAA regulations are implemented, the need 
for additional reforms may become evident, and they could be considered 
along with other proposals at that time. But there is no compelling 
reason to implement other major reforms at this time, such as 
transferring to the State Department all of the Department of Homeland 
Security's intercountry-adoption work currently housed in Citizenship 
and Immigration Services (CIS). Forcing such a transition at this 
already demanding time would be disruptive to the intercountry adoption 
system and confusing to our central authority partners around the 
world.
    After many frustrations with CIS (formerly INS) and the State 
Department in previous years, NCFA is pleased to note that the 
intercountry adoption community in America reports significant 
improvements in the performance of both agencies. There has been 
greater cooperation between the two agencies, increased communications 
and more responsiveness to families and adoption service providers, 
increased standardization of processes across branch offices, and more 
proactive, international advocacy of adoption. Both agencies seem to 
have grasped and appreciate the preciousness of the mission they are 
responsible for in handling intercountry adoption--helping American 
citizens provide loving, permanent families for orphaned children 
around the world.
    The pivotal moment of implementation of the Hague Convention on 
Intercountry Adoption of 1993 and the Intercountry Adoption Act of 2000 
is here. The international adoption community believes that we should 
not jeopardize this long-awaited transition by introducing other major 
bureaucratic and organizational reforms at this time.

                            COUNTRY REPORTS

    Following are brief reports highlighting intercountry adoption 
issues in various Asian countries.
China
    Since China began expanding its practice of intercountry adoption 
in the early 1990s, the country has become a model of consistency and 
predictability. The China Center for Adoption Affairs (CCAA) is an 
example of what a central authority, as contemplated by the Hague 
Convention on Intercountry Adoption, can accomplish in terms of 
decisionmaking, and setting policy, procedures, and oversight. However, 
American adoption service providers express concerns that China's 
process can be unduly long, with adoptions routinely taking more than a 
year--perhaps, the consequence of increased demands on the CCAA to 
process a growing number of applications. When NCFA met with CCAA in 
November 2005 in Beijing, the CCAA reported that it had just received 
2,000 dossiers in the month of October alone, a dramatic increase.
    The American international adoption community applauds Beijing's 
emerging commitment to improved child welfare services, including 
CCAA's promotion of domestic adoption. However, the American adoption 
community is concerned about the impact this trend could have on 
international adoption. We recommend ongoing, proactive international 
adoption advocacy by the American Government, so China will continue to 
treat intercountry adoption as the preferred alternative to 
institutionalization, for children who are not likely to be adopted 
domestically.
South Korea
    Formalized American intercountry adoption essentially began in 
association with the Korean War and the pioneering work of Harry and 
Bertha Holt of Holt International Services, and has continued since the 
1950s. By far, the largest group of internationally adopted children in 
America, still, is children born in South Korea. However, in 2005, 
South Korea posted its lowest number of American adoptions since 1996, 
and nationalistic voices have begun to speak out more vocally against 
intercountry adoption in this pioneering country.
    A South Korean trend toward reduced commitment to intercountry 
adoption would not be surprising, if that is indeed what we are 
experiencing, but it should be resisted, in the interests of children. 
Since the days of intercountry adoption's beginnings, South Korea has 
become a relatively prosperous country. The more prosperous the country 
of origin, the more prevalent may be the attitude that it can and 
should take care of its orphans domestically. The American Government 
and adoption community should applaud South Korean efforts to promote 
domestic adoption and strengthen its domestic child welfare programs. 
But we should continue to advocate, in the best interests of children, 
for the policy of preferring intercountry adoption over nonfamily 
options when domestic adoption is not occurring for a child.
Vietnam
    From 2002 to 2003, Vietnam adoptions decreased by half, from 766 to 
382. Credible concerns that some children made eligible for adoption 
were being bought or stolen led the U.S. Immigration and Naturalization 
Service (INS) to review the Vietnamese adoption process. Subsequently, 
the Government of Vietnam announced amendments to its adoption 
regulations, which took effect January 2, 2003. Changes included a 
requirement for countries to enter bilateral agreements with Vietnam 
and the creation of a central foreign adoption office to approve 
petitions.
    The American adoption community is encouraged that, in 2005, the 
United States and Vietnam signed a bilateral agreement that laid the 
groundwork for intercountry adoptions between the two countries to 
recommence after a 2\1/2\-year hiatus. In the interests of Vietnam's 
orphaned children, the adoption community is hoping for and looking 
forward to a full resumption of adoptions to premoratorium levels and 
to eventual increases in the number of adoptions. However, given the 
still evolving system in Vietnam, close monitoring at the local level 
will continue to be necessary, in order to ensure a transparent process 
free from corruption, with legitimate consents from birth parents, and 
appropriate recordkeeping.
India
    Technically, Indian law does not provide for foreigners to adopt 
Indian children. But under the Guardians and Wards Act of 1890, 
foreigners may petition an Indian District Court for legal custody of a 
child to be taken abroad for adoption. Considering the enormous orphan 
population in India, its annual average of 418 adoptions by Americans 
seems startlingly low. In fact, 2005 posted the lowest number of 
adoptions from India by Americans in the last 15 years--324. However, 
the Indian central authority told NCFA at the Special Commission 
meeting on the practical operation of the Hague Convention on 
Intercountry Adoption in The Hague, in September 2005, that India would 
be interested in working more with the United States upon our country's 
implementation of the Hague Convention. With implementing regulations 
now in place, the American Government and adoption community should 
begin to discuss moving forward with this plan with the Indian central 
authority.
Cambodia
    Citing ``baby selling and baby abduction,'' as well as ``seriously 
flawed'' adoption processes in Cambodia, the INS declared a suspension 
of United States adoptions from Cambodia in December, 2001. The 
adoption community shares the concerns about corruption and 
trafficking, and urges the U.S. Government to ensure child and birth 
parent protections, as well as legal and ethical practices, while 
moving forward toward resuming international adoptions from Cambodia as 
soon as possible.
Philippines
    The Philippines is a Hague Convention country and posts 10th on the 
list of countries of origin, with 259 American adoptions in 2005. The 
Philippines' geography presents a barrier to monitoring the adoption 
process due to its 7,100 islands. The intercountry adoption process in 
Philippine courts is tedious and the law requires a strong preference 
for domestic adoption, followed by a preference for placing children 
with Philippine families abroad. Unlike some other Asian countries, 
there is a disproportion of male children available for adoption. The 
Philippines' long history of cooperation with America and its status as 
the world's third largest English-speaking country suggest that 
increased American adoption advocacy may serve the interests of 
Philippine orphans through increased intercountry adoptions.
Tsunami Countries
    On December 26, 2004, Southeast Asia suffered a horrific natural 
disaster, the tsunami, leaving thousands of people in these countries 
in a state of emergency. Of the four most affected countries--
Indonesia, Sri Lanka, India, and Thailand--only India at the time had 
an established international adoption program. Thailand had experience 
with international adoptions on a small scale, but the process took up 
to 2 years and the Thai Government granted only 69 adoptions in 2004. 
The most affected country, Indonesia, only allowed adoptions by foreign 
couples who had been residents for 2 years. Sri Lanka allowed only 4 
adoptions by United States parents in 2001.
    Despite the outpouring of sympathy from Americans offering to adopt 
tsunami orphans, international adoption was not a habit of these 
countries. In the immediate aftermath of the disaster, affected 
countries' authorities and the international child welfare community 
appropriately focused their efforts to serve the children on shelter 
and nutrition, protection from trafficking, and reuniting them with 
parents or other relatives and community members. Furthermore, before 
intercountry adoption could be considered as an option for tsunami 
orphans, as with all adoptions, it needed to be determined that a child 
is truly orphaned, emotionally ready to be adopted and moved from 
familiar surroundings, and legally free to be adopted, through proper 
legal determinations and proceedings.
    With the passage of time, it seems appropriate for the American 
Government and adoption community to revisit the possibility of 
providing loving, permanent families through intercountry adoption for 
tsunami child victims who have been identified as orphans. Perhaps the 
tsunami-affected countries will be more open to this compassionate 
option at this time. Although international adoption cannot be the 
solution for all of these children, for those who are adopted it will 
likely be the best possible solution.
    Chairman Murkowski, intercountry adoption can strengthen the bonds 
of friendship between countries. Approximately 2 million Americans have 
beloved family members through international adoption from Asian 
countries. Adoption, whether domestic or intercountry, is a 
phenomenally successful social institution, which has met the needs of 
millions of children. It can continue to do so for millions more 
orphans around the world, if allowed the opportunity. We greatly 
appreciate the American Government's and this subcommittee's advocacy 
of intercountry adoption and offer our continued assistance in 
advancing this crucial mission.

    Senator Murkowski. Thank you very much, Mr. Atwood. Ms. 
Cox, your comments this afternoon?

  STATEMENT OF SUSAN SOON-KEUM COX, VICE PRESIDENT OF PUBLIC 
 POLICY AND ADVOCACY, HOLT INTERNATIONAL CHILDREN'S SERVICES, 
                           EUGENE, OR

    Ms. Cox. Thank you. I would like to thank you and the 
committee for holding this hearing today, and especially for 
your support and interest in this subject. My name is Susan Cox 
and I am vice president of public policy at Holt International. 
But I also have the distinction of being an adult adoptee. I 
was the 167th child to be to be adopted from Korea, so that was 
obviously a very long time ago. But it has really been a 
pioneering effort that has continued to help more than 200,000 
children throughout the world find families of their own.
    And one point in the commitment of adoption is that it is 
intended to be a means for families for children, rather than 
children for families. And I can tell you that in the three 
generations now of adult adoptees, that is something that is 
very important to us. The simplistic assumption that a poor 
child in a developing country will have a better life with a 
family in a rich country is simply misguided, imperialistic, 
and it overlooks the sacrifice and loss, not only to the 
sending country, but also to the child.
    Having said that, I don't know that you will ever find 
anyone that feels more positive about adoption and intercountry 
adoption than I do. But at the same time, the rest of the world 
does not necessary understand or believe that families are 
willingly adopting children who are orphans--who are in 
orphanages and institutions--and it's something that they do 
not understand to the point where the ``body parts'' scandal 
makes more sense to them, because, in fact, families would be 
adopting children for their body parts.
    In this environment, it is very necessary for the advocacy 
efforts of the U.S. Government on behalf of so many different 
children and families. I want to point to some of the issues 
that are very important and critical now. As China hosts the 
Olympics, I think it is important to look at the lessons 
learned from Korea in 1988 when they hosted the Olympics, and 
the stories where it said ``babies for sale--Koreans make them, 
Americans buy them.'' The response to that in Korea was 
literally to stop adoption for a period of time, and certainly 
the public opinion about adoption in Korea has never been 
supportive. It is that sort of environment that has made Korea 
begin to propose adoption as a ban, an intercountry adoption 
ban, immediately.
    In Cambodia, a country, the only country that has actually 
been closed to adoption by our Government, it's important that 
we do not sacrifice that process and lose the opportunity that 
is there to maximize the resources and expertise of private 
public partnerships--to be able to build an infrastructure and 
process that can support intercountry adoption. I would say 
that the violation of the process there was so critical where 
adoption was stopped, there really was no ability for adoption 
to move forward, and it created an unstable process in the 
region, where Vietnam or other countries were also tainted by 
what was happening in Cambodia.
    I would like to support the process of the Hague as it 
moves forward. Tom and I have both had the privilege of being 
members of the special commission, and it is very clear that we 
are, the United States, is the 800-pound gorilla. We are the 
largest receiving country in the world, and because of that, we 
have a moral responsibility to make sure that the rest of the 
countries that are also participating in the Hague see us as 
being leaders as we move forward.
    I would like to express concern about the shutting down of 
countries. Madam Chair, you've talked about that in response to 
allegations for things that had gone wrong. But when the 
process isn't respected, when it is circumvented, the tragedy 
is that the programs do shut down. Back in the 1970s, in 
Thailand, where there were abuses, and you could easily bring a 
child home for adoption, the consequence was that that country 
shut adoption down, and even now those numbers are quite small. 
But Latin America responses to allegations of abuse and 
trafficking, and then certainly Romania--while hundreds of 
children were placed--because the process was never readily in 
place in a way of a respectful process with the children and so 
on, that's a country that's now closed.
    I would like to join my colleagues, Tom, the National 
Council for Adoption, as well as the joint council, in 
expressing our grave concern about ICARE. We applaud the 
efforts of both Senator Landrieu, Senator Craig, and all of the 
Members of Congress who are advocating--and the adoption tax 
credit, many of the initiatives of the last few years--we 
certainly support that. However, we feel strongly that this 
puts at risk the process that is happening now, and in fact, 
instead of being able to streamline it, it in fact will have 
the opposite effect. That sentiment is widely felt in the 
adoption community. So again, I want to thank you for this 
opportunity, for your interest, and to remember that there 
really are thousands of children who will benefit from adoption 
if we all work together on this behalf.
    Thank you.
    [The prepared statement of Susan Soon-Keum Cox follows:]

  Prepared Statement of Susan Soon-Keum Cox, Vice President of Public 
Policy and Advocacy, Holt International Children's Services, Eugene, OR

    I am honored to testify before the Senate Committee on Foreign 
Relations, and thank Senator Murkowski for holding this hearing on 
Asian Adoptions to the United States. My name is Susan Soon-keum Cox, I 
am vice president of Public Policy and External Affairs for Holt 
International Children's Services in Eugene, OR.
    Holt International pioneered intercountry adoptions from Korea in 
1956, and has placed approximately 30,000 children from 20 countries 
with adoptive families in the United States. I have been an adoption 
professional for more than 25 years, and I have had the privilege of 
visiting adoption and child welfare programs in many countries. I have 
witnessed tremendous changes in intercountry adoption practice. Some of 
these changes have moved the practice forward--some have not. Sadly, 
what has not changed is that the number of homeless children has not 
diminished, but rather has increased. That reality requires a critical 
examination of the problems associated with international adoption and 
a determination to find solutions.
    In 1956, when mixed-race Korean children were sent to adoptive 
families in the United States and Europe, it was considered an 
outrageous notion that children of one race, culture, and nationality 
could be successfully transplanted from one country to another. 
Particularly since white families were generally adopting Korean 
children. Many considered it a crazy social experiment. But in spite of 
the skeptics, it worked.
    Worldwide, approximately 200,000 children have come to their 
families through international adoption. More than half of those 
children have come to families in the United States. In 2005, U.S. 
citizens adopted 22,728 children who were born in other countries.
    International adoption should never be the first line of defense 
for homeless children. It is not meant to be a solution to world 
poverty, civil unrest, or urban migration. For literally thousands of 
children throughout the world, however, intercountry adoption is the 
only viable possibility for them to have a permanent loving family. 
Whenever there is a disaster, whether from natural causes, armed 
conflict, or human atrocities, the predictable consequence is that 
children are the most vulnerable. Their survival, both immediate and 
long-term, is the most fragile.
    Few subjects elicit deeper passion than issues regarding children. 
International adoption has always been controversial and often 
misunderstood. It is a life-long process, one that is generational and 
extends even beyond the generation that the child comes into the 
family. The more ordinary international adoption becomes, the larger 
the numbers, the greater the critical mass, the more diligent we must 
be in setting ethical standards that assure that birth parents, 
adoptive parents, and especially the children be protected and safe. 
This diligence is also necessary to protect the institution of 
intercountry adoption and the hope it represents for generations of 
children in the future.
    International adoption is complex and complicated. That is 
unavoidable when you consider how multilayered the process. It extends 
between different cultures, languages, time zones, laws, currencies, 
and the official bureaucracies of at least two governments. Providing 
ethical adoption services requires more than just learning the laws, 
procedures, and nuances unique to a particular country and program.
    Adoption agencies, facilitators, adoptive parents, and adoption 
advocates must be committed to the big-picture, long-term process of 
international adoption over the short-term, immediate result for a 
particular child. Policies and practices must be established that 
recognize the greater good for children who will be served.
    An unfaltering commitment of adoption should be that it is intended 
as a means to provide families for children, rather than children for 
families. This commitment is especially critical in international 
adoption, where children of one country are being taken to another. The 
simplistic assumption that a poor child in a developing country will 
have a better life with a family in a ``rich'' country is misguided, 
imperialistic, and overlooks the sacrifice and loss, not only to the 
sending country, but also to the child.
    As the number of countries with international adoption programs 
have increased, the number of agencies and individuals placing children 
have increased, to nearly 500, according to the National Adoption 
Information Clearing House. The size of a program or agency does not 
determine whether or not ethical adoption practices are followed. In 
the United States and elsewhere, there are large and small agencies 
that provide sound, ethical adoption services. The measurement of a 
good program is the philosophy and commitment of its principals and 
employees to strong professional child welfare principles. 
International adoption is not simply a legal process; it is a life-long 
process that requires consistent and professional social work 
practices.
    International adoption is undeniably a business, and there are 
legitimate expenses associated with managing and operating legitimate 
program activity. Adoption practitioners are required to know the 
complex adoption requirements in the United States as well as the ever-
changing international requirements. It is not the standard cost of 
providing services that is problematic; it is the inflated expenses 
passed on to families that create ethical land mines. The appearance of 
``buying and selling'' of children is unavoidable when the cost of an 
international adoption far exceeds the local yearly income of a family. 
It is in the best interest of adoption agencies and practitioners to 
set the ethical standards that avoid even the appearance of profiting 
at the expense of children and families.

                  ASIAN ADOPTIONS TO THE UNITED STATES

    China, Cambodia, Vietnam, and Indonesia, the countries that are the 
focus of this hearing, are representative of issues and concerns that 
overlay intercountry adoption more generally. These countries, however, 
also represent unique circumstances in the current intercountry 
adoption climate.
China
    After intercountry adoption from China became more common in the 
early 1990s, China rapidly became the largest and most prominent 
``sending country'' in the Asian region. More than 51,000 children have 
been placed for adoption in the United States from China between 1991 
and 2005. Although the process has slowed in terms of the length of 
time that it now takes for a child to be adopted from China, the 
Chinese Government's adoption program is considered a model program in 
terms of efficiency. The conditions of orphanage care in China have 
improved dramatically in the last decade, and domestic adoption, foster 
care, and permanency programs for orphaned children in China are 
increasing each year.
    Adoptions from China changed the landscape and profile of adoptive 
families. For the first time, single parents and prospective parents 
over the age of 40 could adopt babies and toddlers. The requirement of 
families to travel to China created strong bonds and connections 
between adoptive families and the birth country of their adopted child. 
This increased understanding about the critical need for adoptive 
families to help their child stay connected to his or her birth 
heritage and culture has helped transform how adopted children identify 
and balance their race, culture, and heritage.
    As China continues to be a more active participant in the global 
community, intercountry adoption is likely to be examined in the harsh 
light of international public opinion. As China prepares to host the 
Olympic Games in 2008, there are lessons to be learned from the 
experience in 1988 when Korea hosted the games and intercountry 
adoption became the target of news media stories whose headlines 
described adoption as ``exploitation.''
Vietnam
    Before the fall of Saigon in 1975, approximately 8,000 children 
from Vietnam were placed for adoption with families in the United 
States. When relationships with that country reopened and intercountry 
adoption resumed in the early 1990s, there was strong interest on the 
part of United States families to adopt from Vietnam.
    Those early adoptions from Vietnam were complicated by the lack of 
formal diplomatic and consular relations with the United States, which 
required children adopted in Vietnam to finalize their paperwork at the 
United States Embassy in Thailand. This procedure added both to the 
time and the expense of the adoption process. This situation changed in 
the mid-1990s, when adoptions could be finalized in Vietnam, 
eliminating the need to complete the process in Thailand.
    In many ways, the success of adoptions from Vietnam contributed to 
a climate of market-driven competitiveness, and eventually to 
widespread abuse and unethical adoption practices. In this environment, 
it was virtually impossible to maintain ethical professional standards 
when the opposite became the norm. Predictably, there were adoption 
scandals, and in response to these allegations of abuse, the Vietnamese 
Government rewrote their adoption laws in 2002.
    What was expected to be a brief period of disruption resulted in an 
intercountry adoption moratorium to the United States that lasted for 
more than 2 years. During that time, the number of U.S. agencies that 
had been working in Vietnam shrank from dozens to fewer than 10. During 
those 2 years, the disruption to the process was critical. Agencies 
that had invested years in developing child welfare programs simply 
could not afford to continue to support those services. Many children 
had been in the process of adoption and had already been matched with 
adoptive families. A few families continued to wait through the 2 
years, but sadly, dozens of other children lost their opportunity to be 
adopted. For those children, the cost of delay is immeasurable. 
Intercountry adoption was reestablished between Vietnam and the United 
States in 2005 and, to date, 19 United States agencies are licensed to 
place children from Vietnam.
Cambodia
    Years of war, genocide, and political violence underlie the serious 
crisis of homeless children in Cambodia. A host of factors created 
homelessness, including children born out of wedlock, desertion of 
spouses, death of parents due to AIDS or other ailments, and other 
physical and psychological health conditions in families. All these 
factors are compounded by severe poverty.
    Child trafficking is also a serious issue in Cambodia, partly 
caused by inadequate legal and social service systems governing 
intercountry adoption. This situation has resulted in the closure of 
Cambodia to intercountry adoption and a current restructuring of 
adoption practice there.
    In the 2005 USAID Cambodia Orphanage Survey [attachment], Holt 
International identified over 8,000 children living in 204 residential 
child care facilities. Most of the children expected to grow up in the 
institution that is caring for them. Only a few well-resourced 
international organizations offer services to assist local families to 
stabilize so parents can care for their children. Scarce resources are 
targeted to meeting the immediate needs of the children through model 
projects.
    [Editor's note.--The attachment mentioned above will be maintained 
in the permanent files of the committee.]
    Community-based services that are far more cost effective than 
currently existing alternatives will be documented in these programs; 
emphasized in trainings; and broadly promoted to generate interest in 
service replication and child welfare system reform.
    Funding for these programs will not be applied to intercountry 
adoption, but the services developed through model projects will cover 
key competencies required for sound, ethical intercountry, and local 
adoption practice. These competencies include comprehensive background 
checks, child developmental assessments, child-friendly temporary care 
models, and prioritizing family preservation, if this result is in the 
best interest of the child. Opportunities for promoting local adoption 
will be assessed.
    Overwhelming evidence exists that family-based care gives children 
vastly improved life prospects when compared to those facing life in 
institutions or on the streets. In addition, family care reduces a 
tremendous toll on a country's economic and social fabric. The 
objective is that several hundred children a year will avoid 
institutionalization and life on the streets through community-based 
family alternatives.
    Cambodia has the distinction of being the only country that the 
U.S. Government has closed to intercountry adoption. This dramatic 
action followed reports of unethical practices and trafficking that 
affected dozens of families and children. Although there are differing 
views about how the adoption process in Cambodia deteriorated to this 
point, the current situation has been an important opportunity to 
evaluate lessons learned by everyone connected to the adoption 
community.
    The Cambodian Government acknowledges its own institutional 
limitations regarding accountability and infrastructure. Officials have 
also responded favorably to the international community's offers to 
help develop their capacity and the infrastructure required to 
establish a reasonable and effective adoption process that will meet 
standards of efficiency and the critical need to protect children and 
families.
    The Cambodian Government's highest current priority is to draft and 
enact a new adoption law, and work on this draft law is taking place 
within the Ministry of Justice, Ministry of Foreign Affairs, and the 
Ministry of Social Affairs. According to UNICEF, the changes that were 
made to the adoption law seek to bring the law into compliance with 
Cambodia's new draft civil code.
    The next priority in Cambodia is to establish a central authority 
for adoptions and, through UNICEF, the process is underway to do a 
rapid assessment of the existing infrastructure at the ministry level. 
This step will be followed by an evaluation of existing mechanisms and 
an assessment of what is required to develop an infrastructure for 
intercountry adoption.
    While immediate attention in Cambodia is focused on adoption 
activity, it is essential that priority also be given to developing a 
child welfare infrastructure that will serve the long-term best 
interests of children and families.
Advocating for children and families
    In addition to the current closure of adoptions from Cambodia and 
previously from Vietnam, other countries around the world are reacting 
to circumstances in which internationally-adopted children were clearly 
not protected, with devastating consequences. Although these situations 
are the rare exception, they often result in increased concern about an 
alleged relationship between intercountry adoption and child 
trafficking and abuse. It is critical that policies and practices 
balance the urgent needs of children with the necessary safeguards that 
will protect them, not only at the time of adoption, but also as they 
address the life-long issues associated with intercountry adoption.
    In the United States since 2000, there have been numerous policy 
advancements in support of sound, ethical intercountry adoption, 
including the Child Citizenship Act, the Adoption Tax Credit, and the 
Intercountry Adoption Act of 2000. Each of these initiatives delivered 
positive benefits for adoptees and adoptive families.
    In this current environment, in which intercountry adoption is 
observed with suspicion and doubt, there is great urgency to establish 
and promote policies and systems that are respectful of homeless 
children, as well as the culture and circumstances of their birth 
countries.
    On behalf of the adoption community, I want to express our sincere 
appreciation for the concern and support of the U.S. Congress on issues 
regarding intercountry adoption, especially from Asia. I appeal to this 
committee to continue to be a powerful advocate on behalf of 
intercountry adoption. As you promote future adoption reform, I 
respectfully urge you to consider carefully and thoughtfully the 
consequences of initiatives that may delay or compromise the 
implementation in the United States of the Hague Convention.

    Senator Murkowski. Thank you so very much, Ms. Cox. Let me 
ask a question of both of you, and this is relating to the 
ICARE legislation, which you have both mentioned and expressed 
a degree of concern. Mr. Atwood, I thought I heard you say that 
your concern was about yet another layer of bureaucracy or 
different process--is that really what it is about, that we are 
at that point where we know what the process is, and we have 
learned to work with other countries and they understand our 
process, and if we change it, it will be more complicated, or 
does it add more bureaucracy? I am trying to get clearly the 
concerns coming from the adoption community on this 
legislation.
    Mr. Atwood. First and foremost, it is a management issue--
it is a transition issue. The Hague implementing regulations, 
which were just published in February--they are 100 pages long, 
and they change a lot of ways of doing things. It is going to 
take 18 months for the intercountry adoption system 
approximately, or 12, at least, to make the transition to that 
new way of doing things. And to, at the same time, ask that 
everything that is being done presently by the Department of 
Homeland Security is to be moved to the State Department while 
both of those agencies are in the midst of managing the Hague 
transition, and to have the adopted transition, and to have the 
adopted service providers out there, and the prospective 
parents, and be able to try to figure out what is going on, 
would be an impossible assignment.
    Senator Murkowski. So the concern is as much about timing--
that if we had an oportunity--that these new regulations that 
are going forward with the Hague--that perhaps the ICARE 
legislation would fit better, and its objections are more 
around timing than anything else?
    Mr. Atwood. As we say in our letter to Senator Landrieu, 
NCFA finds many of the tenets of ICARE to be of interest and 
potentially worth pursuing. We sincerely respect the excellent 
intentions contained in the initiative. However, we believe 
that now is not a time to consider such dramatic changes to the 
intercountry adoption system, just as that system makes the 
transitioning to the Hague Convention piece. And moreover, 
there is--as we make progress through the transition--it's 
possible other reforms might need to be considered. The first 
thing is to make the Hague transition, and then look at the 
ideas in ICARE.
    Ms. Cox. I agree they are two parallel tracks, and I think 
at this point it would be very confusing, and instead of 
improving the process that is going forward now, to continue to 
overwhelm it seems to derail that, or potentially could derail 
that.
    Senator Murkowski. Let me ask you both again, where there 
have been allegations or concerns that here in this country, we 
adopt from other nations and bring the child in and then the 
child is abused, or there are things that happen to the 
children--how do we, as a Nation, counter the cases of abuse of 
adopted children to assure other nations that may want to 
continue to have open adoptions with us, and not close off the 
adoption process to the United States, and remain willing to 
participate in international adoptions?
    Mr. Atwood. Well, first, I think we have to share in the 
grief and outrage that a country feels when one of its children 
adopted by an American is harmed. This should never happen. It 
is an outrage. But that said, these rare tragic incidents could 
only be made more tragic if they resulted in a shutdown of 
adoptions and the children be deprived of having families. 
Unfortunately, harms to children do occur in families, whether 
adopted or biological, and we should do everything we can to 
minimize those.
    Beginning with strict screening processes. Of course people 
who adopt go through much more than people go through to bear 
normal biological children. So we do need to be strict in our 
screening processes. Many countries require post-placement 
reporting, and we need to be cooperative, both with adoption 
service providers and parents--should obey the rules of the 
countries with respect to post-placement reporting. The 
emphasis needs to be, however, on the need for the children and 
families, ultimately.
    Ms. Cox. I think the preparation of families is critical. 
And while you can certainly also point to abuses that happen in 
biological families, this is different because it has been the 
trust of one country to let their children be adopted by 
another country, and so it does create a different kind of 
tension certainly. And I think one of the things that the Hague 
will do certainly is by an accreditation process, there will be 
a much more stringent requirement for uniformity in the way 
agencies protect families. You know, the idea that you can just 
love a child and take him home with you, and that everything 
will be okay. Unfortunately, that isn't true.
    And so many children who were placed for adoption have been 
institutionalized, and they will have the effects of the 
institutionalization, of all of the abandonment, of loss, all 
those things which reflect in how the childhood behavior 
develops. And if family is not told about this and prepared, 
they do not really have anyone to go to. And we are looking now 
at what is happening in Russia with some really terrible abuses 
that happened there, and the numbers may be small but it has 
created a huge amount of attention in that country. And so we 
have to be careful, and sometimes it may seem overly stringent, 
and there needs to be a balance between reasonableness, but 
also protection.
    Senator Murkowski. Thank you, I appreciate that. When you 
talk to anyone that is an adopted family--the adoptive 
families--there is one thing that is consistent in their 
complaints, and it is the bureaucracy, the process that they 
have got to go through. And I think so much of it is just 
understanding the need for all the hoops and all the checks, 
and there are very good and legitimate reasons for so much of 
it. But it seems that the bureaucracy and the cost associated 
with it are hurdles that we hear about all the time. What is 
the role of the National Council of Adoption in addressing this 
or helping to alleviate, or just helping to explain these two 
issues?
    Mr. Atwood. Alleviate and explain, both. We are an 
adoption, research, education, and advocacy organization, so we 
do policy analysis and advocacy--we do education. And with 
respect to the bureaucracy, as you noted, there are good 
reasons for significant regulations when you are talking about 
the determination of parental rights of one set of parents, and 
the difference for parental rights to another set of parents. 
The child placement is needed--the regulations to prevent 
corruption are necessary in the process. So part of it is 
explaining.
    Another part of our work is to try to improve the rules and 
regulations. However, that is one of the incentives behind the 
Hague Convention--to create uniformity, predictability, 
transparency, to promote intercountry adoptions while 
protecting the children. So it is a hefty--you know, you have 
to kind of an analyze a regulation on a case-by-case basis in 
order to comment when a parent says that it is excessive. It is 
a difficult process. It needs to be a difficult process in that 
respect, because we are talking about protecting children, and 
the birth parents and adoptive parents, as well.
    When something goes wrong in adoption, it is heartbreaking. 
Things will go wrong in adoption, because there are things to 
go wrong in every human endeavor. But when it goes wrong in a 
contract or a business deal or something like that, it is not 
the same. When it goes wrong in an adoption, you are talking 
about children, family, love, parents, and dreams. And so, that 
is the nature of what we work with here in adoption.
    Ms. Cox. Senator, sometimes the bureaucracy is our response 
to what the other countries require. The dossiers that other 
countries ask for are really quite elaborate, and it is a 
burden for adoptive parents, there is no question. And so a 
part of it is the required response that we have to fulfill the 
obligations that other countries ask for. But there are two 
points that perhaps you and your committee could help with. The 
extended time with China, for example, right now, is going to 
require--and not only China--but that families have to redo 
their certificates. If there is some way to really look at a 
process where it does not have to be all done over again. The 
home study information is really not going to have changed that 
much. But then if they had records or if there were things that 
should have prevented them from being a parent, it is not going 
to change in that expired time of 6 months, so that really does 
not seem like a practical thing to maybe have to do. And so if 
there were something, something we could do to look at that, I 
think that would be very helpful.
    The other thing that I believe will change with the Hague, 
and when the different bureaus around the country, formerly 
known as INS, has to look at the different home studies and the 
processes. Very often they also end up doing case work; that 
the information that has been sent to them was not adequately 
provided by the adoptive--the agency, and so hopefully, when 
the Hague is, you know, at the accreditation process, there 
will be more uniformity to that in those agencies that do not 
adequately do the work for their adoptive parents, and for 
their process, that that will be eliminated, and that will 
streamline it a bit. Certainly that is a hope.
    Senator Murkowski. Well, is it also possible that if they 
fail, these entities that have been providing some of these 
services fail to meet the accreditation, actually have fewer 
out there as you would possibly take longer? Is that a concern, 
or are we pretty comfortable with the accreditation--those that 
are providing the service will be able to meet the 
requirements?
    Ms. Cox. I think so. The Hague is not something that has 
just happened. I mean, we have been anticipating this for a 
long time. So I do not know the number of agencies that are 
already accredited, but that is certainly something agencies 
could have been anticipating for some time. So there will 
certainly be a moment or a time as we are all adjusting in the 
transfer that will be difficult--I think we have all expected 
that. But hopefully, the agencies are also going to have a 
clear enough process and guidelines that we will be able to 
accommodate that.
    Mr. Atwood. You also asked about costs.
    Senator Murkowski. Oh, yes.
    Mr. Atwood. The cost of adoption is a stretch for many 
families. The adoption tax credit helps. We need the sunset 
that is scheduled for that in 2010 to be repealed. It is 
currently at $10,000, and it needs to stay at $10,000 at 
least----
    Senator Murkowski. What is the average cost of 
international adoption?
    Mr. Atwood. In the neighborhood of $18,000 to $25,000, and 
it can be more. The tax credit is really crucial for a lot of 
families, and this really comes into play in international 
adoption, in particular, because there are lots of children 
internationally. When it comes to domestic infants adoptions, 
while looking at it from a child's point of view, we know they 
are going to be adopted. Somebody will be able to afford to 
adopt those children. But looking internationally, where there 
is way many more children eligible to be adopted than there are 
parents adopting, it becomes really crucial for marginal 
families to have that tax credit.
    But there again, it also needs to be noted that adoption is 
costly--has costs associated. People ought not to think there 
are people out there just exploiting in a systematic way, 
broadly and widely, parents' desire for children. The large, 
vast majority of people involved in providing adoption service 
are doing it because they want to help children and families. 
That's the whole reason.
    Senator Murkowski. Which is the right reason.
    Quickly, the increase in international adoptions--is this 
leading to a downward trend in domestic adoptions? Are we 
seeing that, or is that actually happening on the domestic 
front?
    Mr. Atwood. Actually, international adoptions have slightly 
exceeded the number of domestic infant adoptions at this point. 
It is certainly not competing, so to speak, with infant 
adoptions--there still will be plenty of parents to adopt them. 
There are children in foster care--118,000 children with the 
case status of ``waiting to be adopted,'' in foster care. I 
would not put it that way, that you know, the people are--I 
think it is more of an expanding pie than a fixed pie. People 
who are called to adopt a child will explore all the options. 
And they are, you know, any adopted parent will tell you ``this 
is my child, this is the child who is supposed to be in my 
family,'' and we feel that--my wife and I feel about our child 
by adoption--and this is true of every adoptive parent.
    Ms. Cox. The domestic numbers have also been affected by 
things like surrogacy and just the increased ability for 
infertility treatments and that sort of thing, so that's been 
somewhat affected by it. But I think that it is really--I think 
it is a very good question--and also one of the things I so 
appreciate about the congressional coalition on adoption is 
that they advocate not for ``our children'' and ``their 
children,'' but ``the children.'' It is much more of a global 
emphasis on children, which I think is very positive and 
important. I thank you for that.
    Mr. Atwood. Senator Landrieu, who is a great adoption 
leader--and I find it awkward and unusual to be having concerns 
about her legislation--has a very nice way of putting it, which 
is ``There are no unwanted children, only children who haven't 
found their families yet.'' So we need to do a better job of 
educating people about the need, and inspiring them to a 
calling they may be having to adopt.
    Senator Murkowski. Well, thank you for bringing children 
together with their families. We appreciate the efforts that 
you do on behalf of so many, and I thank you for giving us some 
time this afternoon. We really appreciate that.
    And with that we stand adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]


</pre></body></html>
